Environmental Protection Agency           Department of Agriculture
Office of Inspector General               Office of Inspector General




        Evaluation Report:
        Saving the Chesapeake Bay Watershed
        Requires Better Coordination of
        Environmental and Agricultural
        Resources

        EPA OIG Report No. 2007-P-00004
        USDA OIG Report No. 50601-10-Hq

        November 20, 2006
    About This Joint Report
    The Offices of Inspector General for the U.S. Environmental Protection Agency and the
    U.S. Department of Agriculture jointly conducted this evaluation. The Chesapeake Bay
    Program is a partnership of Federal, State, and local governments, as well as non-profits
    and academia. We conducted this review jointly to identify areas of mutual concern
    and opportunities to enhance the Federal partnership as they relate to environmental and
    agricultural issues for the Chesapeake Bay Program.




Abbreviations
ARS           Agricultural Research Service
CBPO          Chesapeake Bay Program Office
CEAP          Conservation Effects Assessment Project
CRP           Conservation Reserve Program
CREP          Conservation Reserve Enhancement Program
CSREES        Cooperative State Research, Education, and Extension Service
EPA           U.S. Environmental Protection Agency
EQIP          Environmental Quality Incentives Program
FS            Forest Service
FSA           Farm Service Agency
GAO           Government Accountability Office
NFCA          Non-Funded Cooperative Agreement
NFS           National Forest System
NRCS          Natural Resources Conservation Service
OIG           Office of Inspector General
USDA          U.S. Department of Agriculture




Cover photo: A Virginia pond serves as a reservoir to stock cattle’s alternative water source
             (EPA OIG photo).
Environmental Protection Agency                                              Department of Agriculture
Office of Inspector General                                                  Office of Inspector General




                                      November 20, 2006

MEMORANDUM

SUBJECT: Saving the Chesapeake Bay Watershed Requires Better Coordination
         of Environmental and Agricultural Resources
         EPA OIG Report No. 2007-P-00004
         USDA OIG Report No. 50601-10-Hq

TO:            Donald S. Welsh                             Mark Rey
               Regional Administrator                      Under Secretary
               Region 3                                    Natural Resources and Environment
               U.S. Environmental Protection Agency        U.S. Department of Agriculture


This is our report on the subject evaluation conducted by the Offices of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA) and the U.S. Department of Agriculture
(USDA). This report contains findings that describe issues the EPA and USDA OIGs have
identified and corrective actions recommended by both OIGs. This report represents the opinion
of the OIGs and does not necessarily represent the final EPA or USDA positions. Final
determinations on matters in this report will be made by Agency managers in accordance with
established resolution procedures.

This evaluation was conducted to respond to the concern of U.S. Senator Barbara A. Mikulski
from Maryland, that the goals to clean up the Chesapeake Bay may not be achieved. This
evaluation is part of a series of evaluations that the EPA OIG is conducting to determine whether
best management practices and other controls are adequate to achieve the Chesapeake Bay’s
long-term water quality goals. The EPA OIG requested the USDA OIG to partner in this
particular evaluation because of its expertise in agricultural issues and programs.

Action Required

We held an exit conference with EPA on July 17, 2006, and EPA provided its written response
on October 23, 2006. EPA concurred with our findings and recommendations, and its full
response is in Appendix E. Based on EPA’s response, we made changes to the report as
appropriate. In accordance with EPA Manual 2750, EPA is required to provide a written
response to this report on the status of recommendations within 90 calendar days. This is to
include a corrective action plan for agreed upon actions, including milestone dates. In addition
to providing us with a paper copy of your response, EPA is requested to email an electronic
version to fuller.linda@epa.gov. We have no objections to further release of this report to the
public. The report will be available at http://www.epa.gov/oig. If you or any of your staff have
any questions related to EPA issues, please contact Bill Roderick, Acting Inspector General, at
(202) 566-0847; Dan Engelberg, Product Line Director, at (202) 566-0830; or Linda Fuller,
Assignment Manager, at (617) 918-1485.

We held an exit conference with USDA on July 6, 2006, and USDA provided its written
response on October 12, 2006. USDA also concurred with our findings and recommendations,
and its full response is in Appendix F. The USDA response contained sufficient justification to
reach management decisions on Recommendations 5, 6, and 7. We ask USDA to please follow
Departmental and your internal agency procedures in forwarding final-action correspondence to
the Director, Planning and Accountability Division, Office of the Chief Financial Officer.
Excerpts from the USDA response and the Office of Inspector General’s (OIG) position will be
presented in a separate memorandum to USDA.

Based on the response, management decision has not been reached for Recommendation 4. The
information needed to reach management decision is set forth in the OIG Position section after
the recommendation. In accordance with Departmental Regulation 1720-1, please furnish a
reply within 60 days describing the corrective actions taken or planned and the timeframes for
implementation for those recommendations for which a management decision has not yet been
reached. Please note that the regulation requires a management decision be reached for all
recommendations within a maximum of 6 months from the date of report issuance. Final action
on the management decisions should be completed within 1 year of the date of the management
decisions to preclude being listed in the Department’s annual Performance and Accountability
Report.

This report will also be available to the public at http://www.usda.gov/oig/rptsaudits.htm.
For questions related to USDA, please contact Robert W. Young, Assistant Inspector General for
Audit, at (202) 720-6945, or Ernest M. Hayashi, Director, Farm and Foreign Agricultural
Division, at (202) 720-2887.

We appreciate the courtesies and cooperation extended to us by EPA and USDA during this
review.


                                                             /s/
           Bill A. Roderick                                 Phyllis K. Fong
           Acting Inspector General                         Inspector General
           Office of Inspector General                      Office of Inspector General
           U.S. Environmental Protection Agency             U.S. Department of Agriculture
cc:   Congress
      Senator Barbara A. Mikulski

      EPA
      Benjamin Grumbles, Assistant Administrator, Office of Water
      Jon Scholl, Counselor to the Administrator for Agricultural Policy
      Rebecca Hanmer, Chesapeake Bay Program Office
      Lorraine Fleury, Audit Coordinator, Region 3
      Michael Mason, Office of Water

      USDA
      Gale A. Buchanan, Under Secretary for Research, Education and Economics
      Floyd Gaibler, Acting Under Secretary for Farm and Foreign Agricultural Services
Executive Summary
Saving the Chesapeake Bay Watershed                                                         EPA OIG Report No. 2007-P-00004
                                                                                           USDA OIG Report No. 50601-10-Hq

Requires Better Coordination of                                                                            November 20, 2006

Environmental and Agricultural Resources
                                  What We Found
Purpose of Review
                                  Despite significant efforts to improve water quality in the Chesapeake Bay watershed,
We conducted this review          excess nutrients and sediment continue to impair the Bay’s water quality. Improving
at the request of U.S.            water quality conditions in the Bay is necessary to support living resources throughout
Senator Barbara A.                the ecosystem, which in turn supports commercial and recreational uses, such as
Mikulski of Maryland.             fishing/shellfishing. At the current rate of progress, the watershed will remain impaired
Our overall objective was         for decades. State-level partners have committed the agricultural community to making
to identify principal             the largest nutrient reductions, but numerous practices abound and are generally
barriers to achieving             performed on a voluntary basis. Few of the agricultural practices in the tributary
nutrient reduction goals in       strategies have been implemented because the agricultural community considers many
the Chesapeake Bay. This          of these practices as either being unprofitable or requiring significant changes in
report, the first of several      farming techniques. Although the State-level partners have provided substantial funding
planned, is on agriculture        to implement these practices, one of the key State partners acknowledged substantial
issues. It was prepared           additional funding is still needed. At the Federal level, applications for USDA’s
through a partnership             technical and financial assistance programs went unfunded, making it difficult to expand
between the U.S.                  incentives for Bay area agricultural producers.
Environmental Protection
Agency (EPA) and U.S.             EPA must improve its coordination and collaboration with its Bay partners and the
Department of Agriculture         agricultural community to better reduce nutrients and sediment entering the Chesapeake
(USDA) Offices of                 Bay watershed. However, members of the agricultural community have been reluctant
Inspector General. The            to participate with EPA because of EPA’s regulatory enforcement role. USDA, a Bay
report concentrated on            partner at the Federal level, could significantly assist EPA in implementing the needed
agricultural best                 conservation practices within the agricultural community. Given its many conservation
management practices              programs, extensive field organization, and long experience working with the
used to address nonpoint          agricultural community, USDA's commitment and collaboration would significantly
nutrient and sediment             contribute to the EPA Chesapeake Bay Program Office’s plan for long-term
loading to the Chesapeake         improvement to the Bay’s water quality. However, USDA has not coordinated a
Bay watershed.                    Department-wide strategy or policy to address its commitment as a Bay partner.

What We Recommend
We recommend that EPA execute a new Memorandum of Agreement with USDA that specifically identifies tasks and
timeframes for meeting mutually shared goals in the cleanup of the Bay. Further, the two agencies should agree to a
method to track progress. Also, EPA, USDA, and the States, with assistance from land grant universities and
agricultural organizations, should revisit State tributary strategies to ensure that an effective and cost-efficient
combination of conservation practices are adopted and implemented. USDA should assign a senior level official to
coordinate with EPA’s Chesapeake Bay Program and review the feasibility of targeting USDA funds geographically.
Although these steps will not by themselves solve the Bay’s problems, they will significantly assist the Bay partners in
cleaning up the Bay. EPA and USDA generally concurred with our findings and recommendations.
  For further information, contact:                               To review the full report online, click on:
 • The U.S. Environmental Protection Agency                       • www.epa.gov/oig/reports/2007/
     Office of Inspector General at (202) 566-2391; or                20061120-2007-P-00004.pdf; or
 • The U.S. Department of Agriculture, Office of                  • www.usda.gov/oig/rptsaudits.htm
     Inspector General, at FOIASTAFF@oig.usda.gov
             Saving the Chesapeake Bay Watershed Requires Better Coordination
                         of Environmental and Agricultural Resources



                                   Table of Contents
Chapters

  1   Introduction ......................................................................................................................          1

              Purpose..........................................................................................................................    1
              Background ..................................................................................................................        1
              Scope and Methodology...........................................................................................                     9
              Structure of Report.......................................................................................................           9

  2   Chesapeake Bay Watershed Will Not Be Restored by 2010 at Current Level of Effort                                                            11

              Establishing Water Quality Standards and an Equitable Allocation
                  to Reduce Nutrients and Sediment First Priority ...............................................                                 11
              Despite Early Progress, Restoration Could Be Decades Away ............................                                              13
              Agricultural Community Key to Achieving Goals ...................................................                                   15
              Substantial Financial Commitment Needed to Implement Strategies ...............                                                     16
              Better Partnership Needed.........................................................................................                  19

  3   EPA Needs to Improve Its Coordination and Collaboration with the
      Agricultural Community .......................................................................................................              20

              Agricultural Practices in Tributary Strategies Not Widely
                  Implemented by Agricultural Community........................................................                                   20
              EPA Needs to Engage the Agricultural Community to
                  Commit to Implementing Tributary Strategies .................................................                                   23
              Effective EPA-USDA Partnership Could Help Advance Alternative Practices....                                                         27

  4   USDA Needs to Improve Coordination to Restore Chesapeake Bay ............................                                                   30

              Role of USDA .................................................................................................................      30
              Providing Leadership ...................................................................................................            31
              Bringing USDA’s Resources to Bear ...........................................................................                       32
              Evaluating USDA’s Performance ...............................................................................                       38

  5   Conclusions and Recommendations .................................................................................                           43

              Conclusions...................................................................................................................      43
              Recommendations ......................................................................................................              44
              EPA and USDA Responses and OIGs’ Comments ..................................................                                        45


Appendices
  A   Agricultural Best Management Practices for Chesapeake Bay Watershed ................                                                        46
  B   Details on Scope and Methodology...................................................................................                         48
  C   Agricultural Best Management Practices’ Progress and Challenges............................                                                 50
  D   Alternative Agricultural Management Practices ..............................................................                                54
  E   EPA Response to OIG Draft Report ......................................................................................                     57
  F   USDA Response to OIG Draft Report ...................................................................................                       58
                                Chapter 1
                                 Introduction

Purpose
    In 2000, the Chesapeake Bay partners agreed to improve water quality in the Bay and its
    tributaries to the level necessary to support aquatic life and be removed from the U.S.
    Environmental Protection Agency’s (EPA’s) impaired waters list by 2010. Bay
    stakeholders have questioned whether the needed nutrient reduction goals will be met,
    prompting interest from U.S. Senator Barbara A. Mikulski of Maryland. The Senator
    requested the EPA Office of Inspector General (OIG) to evaluate the progress being made
    by the Chesapeake Bay Program. The EPA OIG is evaluating progress in controlling both
    nonpoint and point source pollution. Control of nonpoint source pollution is being
    evaluated in three phases: agriculture, land use, and air deposition. For this report, EPA
    OIG partnered with the U.S. Department of Agriculture (USDA) OIG to evaluate best
    management practices proposed by Bay partners to control agricultural pollution. The EPA
    OIG has also examined the effectiveness of EPA grant funds in targeting Chesapeake Bay
    priorities.

    For this evaluation, EPA OIG and USDA OIG sought to answer the following questions:

       1. How are Bay stakeholders choosing and applying agricultural best management
          practices or conservation practices to address nonpoint nutrient and sediment
          loading to the Chesapeake Bay watershed?

       2. What alternative approaches to reducing nutrient loadings have been proposed for
          the Chesapeake Bay and similar communities?

       3. What challenges must be overcome to effectively implement the current and
          alternative best management practices in the Bay watershed?

       4. What is the feasibility of implementing the short- and long-term management
          practices needed to reduce nutrient and sediment loading to the Chesapeake Bay?


Background
    Bay Watershed Ecology and Geography
    The Chesapeake Bay is North America’s largest and most biologically diverse estuary,
    home to more than 16 million people and 3,600 species of plants, fish, and animals. For
    more than 300 years, the Bay and its tributaries have sustained the region’s economy. The
    Bay watershed is also an important recreational and educational resource.


                                            1
A watershed refers to a geographic area in which water drains to a common outlet. The
Chesapeake Bay watershed includes not only the Bay and its tributaries, but also the
surrounding land. The Chesapeake Bay
watershed covers 64,000 square miles and
includes parts of six States – Delaware,
Maryland, New York, Pennsylvania, Virginia,
and West Virginia – and all of the District of
Columbia (see Figure 1).

The Bay watershed is comprised of
approximately 23 percent agricultural
land (crops, livestock, and pasture), 9 percent
developed land, 58 percent forest cover, and
10 percent mixed open land. In this area,
agriculture is characterized by smaller farms
and a wider range of products than elsewhere
in the United States (farms in the Bay
watershed are approximately 180 acres while
the U.S. average is 500 acres). However,
poultry and hog operations in the
Mid-Atlantic region tend to have more
birds/animals per acre than farms elsewhere
in the country.                                   Figure 1: Map of Chesapeake Bay
                                                  Watershed
                                                  (S      Ch        k B    F    d ti   )

Bay Pollution Sources and Impacts
Nutrient and sediment overload have been identified as the primary causes of water quality
degradation and loss of aquatic life.

   •   Nutrients such as nitrogen and phosphorus aid in the growth of plants and, in
       water, can fuel large algae blooms that block sunlight and, as the algae die and
       decompose, deplete the oxygen in the water. Without sunlight, underwater bay
       grasses cannot grow and blue crabs and fish cannot live, depriving larger fish of
       food sources. Nutrients come from many sources, such as lawn fertilizer, sewage
       treatment plants, septic systems, cropland, livestock, and the air.

   •   Sediment refers to the loose particles of clay, silt, and sand that are suspended in a
       body of water and eventually settle to the bottom. Sediment reaches waterways
       primarily from stream and shoreline erosion, forests, and urban and agricultural
       lands. Sediment also prevents sunlight from reaching aquatic plants, and carries
       excess nutrients to water bodies.

Figures 2a to 2c show the relative contributions of nutrients (specifically, nitrogen and
phosphorus) and sediment from various sectors:


                                          2
     Figure 2a: Sources of Nitrogen to Bay (2004)                             Figure 2b: Sources of Phosphorus to Bay (2004)


                     Urban                                                                    Urban
                     16%                                                                      17%




                                                         Agriculture
                                                           40%
                                                                                                                                              Agriculture
                                                                                                                                                45%


Point Source
    21%
                                                                               Point Source
                                                                                   23%




               Mixed Open                 Atmospheric Deposition to
                   7%                             Water                                                                Atmospheric Deposition to
                                                    1%                                           Mixed Open   Forest           Water
                                Forest
                                                                                                    12%        2%                1%
                                 15%




                                         Figure 2c: Sources of Sediment to Bay (2004)

                                                                  Urban
                                                                   10%


                                            Mixed Open
                                                8%




                                           Forest
                                            20%

                                                                                               Agriculture
                                                                                                  62%




                                          Source (all three charts): Chesapeake Bay Program




                    While the precise percentages have been questioned by stakeholders, the agricultural
                    community is the largest contributor of nutrients and sediment to the Bay. Of the
                    Chesapeake Bay modeled nutrient and sediment loads from agricultural sources, the
                    signatory States of Maryland, Virginia, and Pennsylvania contribute approximately
                    87 percent of nitrogen and phosphorus and 89 percent of sediment; the headwater States of
                    Delaware, New York, and West Virginia contribute the remainder. Although agriculture
                    employs only about 4 percent of the labor force in the Mid-Atlantic region, sub-watersheds
                    in southern New York, northern and southeastern Pennsylvania, western Maryland, and
                    western Virginia rank in the top 10 percent of U.S. watersheds for manure nitrogen runoff
                    and leaching, manure nitrogen loadings from concentrated animal feeding operations, and
                    soil loss from erosion. Further, watersheds in southeast Pennsylvania and the southern


                                                                          3
Virginia coast rank in the top 10 percent of U.S. watersheds for nitrogen loadings from
commercial fertilizer application. These high levels of runoff and loadings are due to a
combination of factors, including rainfall, soil characteristics, and on-farm management
practices including manure application. 1

Stakeholders in Chesapeake Bay Restoration
The Chesapeake Bay Program is a regional partnership of State and Federal agencies,
academic institutions, and non-government organizations formed in 1983 to lead and direct
restoration of the Chesapeake Bay. It supports the goals of the Chesapeake Bay
Agreements (1983, 1987, and 2000) signed by the States of Maryland, Pennsylvania, and
Virginia (referred to as the “signatory States”); the District of Columbia; the Chesapeake
Bay Commission (a tri-state legislative advisory body); and EPA. The Program is
comprised of numerous committees and sub-committees responsible for technical and
administrative actions. They work under the umbrella of the Chesapeake Executive
Council, which consists of the governors of the signatory States; the Mayor of the District
of Columbia; the Chair of the Chesapeake Bay Commission; 2 and the EPA Administrator,
who represents the Federal Government on the council.

        EPA

        As the representative of the Federal Government, EPA and its Chesapeake Bay
        Program Office (CBPO) coordinate partner activity and implementation of
        strategies to meet the restoration goals of the Chesapeake Bay. The EPA/CBPO,
        headquartered in Annapolis, Maryland, is part of EPA’s Region 3. Since 1991, the
        EPA/CBPO budget has remained stable at approximately $20 million annually. In
        Fiscal Year 2006, the funds were distributed as follows:

             •   $8 million to States in implementation grants,
             •   $2 to $3 million in watershed-wide monitoring and modeling efforts,
             •   $6 million for special projects/staffing, and
             •   $3.5 to $4.0 million for administrative support.

        EPA's mission is to protect human health and safeguard the natural environment –
        air, water, and land. EPA was established to consolidate a variety of Federal
        research, monitoring, standard-setting, and enforcement activities to ensure
        environmental protection. The EPA Administrator provides overall supervision of
        the Agency and is responsible directly to the President of the United States. The
        EPA Administrator is supported by nine Assistant Administrators overseeing

1
  Chesapeake Bay Futures, Choices for the 21st Century, Chapter 7, page 86, prepared by Chesapeake Bay’s
Scientific and Technical Advisory Committee.
2
  The Chesapeake Bay Commission was formed in 1980 and serves the General Assemblies of Maryland,
Pennsylvania, and Virginia, guiding them in cooperatively managing the Chesapeake Bay. Each State has a
seven-member delegation consisting of five State legislators, the governor or their designee, and a citizen
representative.



                                                 4
administrative, financial, enforcement/compliance, and specific environmental
programs related to air, water, and land. In addition, the Counselor to the
Administrator for Agricultural Policy advises the EPA Administrator on agricultural
issues and serves as a liaison to the agricultural community, including agricultural
organizations and agencies.

EPA’s organizational structure includes a national headquarters and 10 regional
offices, each of which is responsible for several States (and territories as
appropriate). Each regional office is responsible within its States for the execution
of the Agency's environmental programs. EPA delegates responsibility for issuing
permits and for monitoring and enforcing compliance to States and tribes, and
provides direct support through grants to State environmental programs. EPA also
relies on partnerships with public and private entities to solve environmental
problems not generally addressed by laws and regulations. Partnership efforts
require reaching out to various stakeholder groups, such as the agricultural
community. For example, to assist in such communication, EPA Region 3 has an
agricultural liaison.

EPA’s 2003-2008 Strategic Plan includes goals related to the Chesapeake Bay
Watershed, with targets for nutrient and sediment reduction and increased growth of
submerged aquatic vegetation. However, the plan notes that improving Bay water
quality is a partnership effort and that more specific goals guiding Bay restoration
are delineated in the Chesapeake 2000 Agreement. See next section, “Chesapeake
Bay Cleanup Approach,” for additional information on Bay restoration goals.

USDA

Among the many Federal agencies that provide expertise and resources to the
Chesapeake Bay restoration effort is USDA. The Secretary and Deputy Secretary
of Agriculture lead USDA in achieving its mission to provide leadership on food,
agriculture, natural resources, and related issues based on sound public policy, the
best available science, and efficient management. To accomplish this mission,
USDA activities are performed under 7 mission areas with 17 agencies as shown in
Table 1 that follows.




                                  5
Table 1: USDA Missions
          USDA Mission Area                               USDA Agency
 Farm and Foreign Agricultural           Foreign Agricultural Service (FAS)
 Services
                                         Farm Service Agency (FSA)
                                         Risk Management Agency (RMA)
 Food, Nutrition and Consumer            Food and Nutrition Service (FNS)
 Services
 Food Safety                             Food Safety and Inspection Service (FSIS)
 Marketing and Regulatory Programs       Agricultural Marketing Service (AMS)
                                         Animal and Plant Health Inspection Service
                                         (APHIS)
                                         Grain Inspection, Packers and Stockyards
                                         Administration (GIPSA)
 Natural Resources and Environment       Forest Service (FS)
                                         Natural Resources Conservation Service
                                         (NRCS)
 Research, Education and                 Agricultural Research Service (ARS)
 Economics
                                         Cooperative State Research, Education
                                         and Extension Service (CSREES)
                                         Economic Research Service (ERS)
                                         National Agricultural Statistics Service
                                         (NASS)
 Rural Development                       Rural Business-Cooperative Services (RBCS)
                                         Rural Housing Service (RHS)
                                         Rural Utilities Service (RUS)
Source: USDA

Each mission area is under the direction of an under secretary. However, leadership
and authorities are limited to their unique mission areas.

The organizational structure of USDA’s agencies is diverse. Some agencies operate
with one nationwide office (e.g., CSREES), some agencies operate with national
and regional or area offices (e.g., ARS), and other agencies operate with national,
State and local offices (e.g., NRCS and FSA). Agencies within the Natural
Resources and Environment mission area (NRCS and FS) are characterized by
decentralized management, delegating significant responsibilities and management
decisions to the State and local offices. Agencies within the Farm and Foreign
Agricultural Services mission area (e.g., FSA) retain policy making and other
managerial decision making processes closer to the agency’s headquarters. In
agricultural communities, USDA has positioned “USDA service centers” which
provide a single location where customers can access the services provided by FSA,
NRCS, and Rural Development. Like EPA, USDA agencies also rely heavily on
partnerships with both State and other governmental entities and non-governmental
organizations to accomplish their mission. NRCS’ approximately 2,900 field
offices are often co-located with State and local conservation offices in an effort to



                                  6
better serve the customer. Customers accessing services provided by NRCS’
11,251 permanent Federal field employees may work with a combination of
Federal, local, or State employees – and not perceive any distinction. FSA’s 2,350
service centers are staffed with a combination of 4,287 permanent Federal
employees and 9,008 permanent non-Federal FSA employees.

The two USDA agencies providing the largest amount of conservation funds in the
Chesapeake Bay area are NRCS and FSA. NRCS allocates its funds to each NRCS
State office based on a number of factors, including natural resource concern,
resource base, performance incentive, and State-specific concerns. Once funds are
allocated to the State NRCS offices, the State Conservationist, with the advice of
the State Technical Committee (representatives of various stakeholders), in turn
allocates the funds across the State. NRCS expects the State Conservationist to
allocate funds to achieve the greatest environmental impact. Consequently, in the
Chesapeake Bay States, the majority of funds may be allocated to land within the
Chesapeake Bay watershed. In contrast, FSA funding for conservation practices is
through nationwide competition. However, FSA recognized the Chesapeake Bay
watershed as a conservation priority area and has effectively increased funding to
the watershed by making all land within the Chesapeake Bay eligible for
enrollment. FSA further augments its contribution to the watershed through its
Conservation Reserve Enhancement Program (CREP) partnerships with State
governments, which are used to focus funds on local environmental issues. Each of
the six Chesapeake Bay States has a CREP agreement with FSA.

Through its technical services, research, outreach, and cost-share programs, USDA
can significantly affect producers’ agricultural practices. The goal of USDA’s
conservation programs is to support agricultural productivity while helping to
sustain environmental quality by encouraging practices to reduce soil erosion,
enhance water supplies, improve water quality, increase wildlife habitat, and reduce
damages caused by floods and other natural disasters. These conservation programs
are offered on a voluntary, incentive-based approach. USDA (as a department or
through its agencies) has agreements with the Chesapeake Executive Council
expressing USDA’s commitment, as a partner organization, to manage the
watershed as a cohesive ecosystem and to achieve the goals of the Chesapeake 2000
Agreement. Details on the major USDA agencies and programs that support
Chesapeake Bay restoration efforts can be found in Chapter 4.

USDA has created a strategic plan to implement its vision. The framework of this
plan depends on these key activities: expanding markets for agricultural products
and supporting international economic development; further developing alternative
markets for agricultural products and activities; providing financing needed to help
expand job opportunities and improve housing, utilities, and infrastructure in rural
America; enhancing food safety by taking steps to reduce the prevalence of
foodborne hazards from farm to table; improving nutrition and health by providing
food assistance and nutrition education and promotion; and managing and
protecting America's public and private lands working cooperatively with other



                                  7
       levels of government and the private sector. A copy of the USDA strategic plan can
       be found at: http://www.usda.gov/ocfo/usdasp/usdasp.htm

Chesapeake Bay Cleanup Approach
In 2000, with an agreement known as the Chesapeake 2000 Agreement, the Chesapeake
Bay Program partners recommitted to their overall mission of Bay restoration and
established new goals. The agreement provided for the goal of improving water quality in
the Bay and its tributaries so that these waters may be removed from EPA’s impaired
waters list by 2010 when Section 303(d) of the Clean Water Act would require the
calculation and allocation of a total daily maximum load among the States. At this time,
the non-signatory Bay watershed States of New York, Delaware, and West Virginia also
agreed to nutrient and sediment goals.

All the States within the Bay watershed either have or are expected to prepare tributary
strategies. These strategies are river-specific cleanup plans that include specific best
management practices to be employed to reduce the amount of nutrients and sediment
flowing into the Bay. These strategies are designed to work on a watershed-by-watershed
basis to reduce pollution from point and nonpoint sources.

EPA/CBPO uses the term “best management practices” to describe practices used by all
sectors to reduce nonpoint source pollution. While State tributary strategies delineate
practices for all sectors, agricultural best management practices include conservation
tillage, nutrient management, buffer strips, and other activities that reduce soil loss, prevent
runoff, and provide for the proper application rates of nutrients to cropland. In USDA, the
analogous term is “conservation practices.” For the purposes of this report, these terms are
interchangeable. Following are some examples of agricultural best management practices.
Appendix A shows each of the 26 agricultural best management practices for which
Maryland, Virginia, and Pennsylvania have set implementation goals. As explained in our
Scope and Methodology section, we limited our review of practices to the signatory States.

Table 2: Selected Agricultural Best Management Practices for Chesapeake Bay Watershed
        Practice                                        Description
 Cover Crops               Non-harvested crops (e.g., rye, wheat, barley) are planted to
                           maintain vegetative cover on cropland, holding nutrients at the
                           root zone. Trapped nitrogen can be released and used by the
                           crops.
 Riparian Forest Buffers   Linear wooded areas are located along rivers, streams, and
                           shorelines. Buffers filter nutrients, sediment, and other pollutants
                           from runoff and remove nutrients from groundwater.
 Nutrient                  Plans recommend appropriate rates of nutrient application,
 Management Plan           timing of applications, and placement of nutrients to result in
 Implementation            economically optimum crop yields while managing the level of
                           nutrient loss.
 Off-stream Watering       Limits livestock access to streams with fencing and by providing
 with Fencing              an alternative drinking water source.




                                            8
     Source: Chesapeake Bay Program


Scope and Methodology
    We conducted our evaluation from May 2005 through February 2006 in accordance with
    Government Auditing Standards, issued by the Comptroller General of the United States.
    This evaluation was conducted jointly by the EPA OIG and USDA OIG. We reviewed the
    progress the Chesapeake Bay Program partners had been making in reducing nutrients from
    1985 to 2004, and the activities the Bay partners had taken in meeting the agricultural
    nutrient reduction goals resulting from the Chesapeake 2000 Agreement until the end of
    2005.

    We interviewed EPA and USDA staff representing various Federal programs, State staff
    involved in developing and implementing State tributary strategies, agricultural producers,
    and experts from academia and other fields involved in Chesapeake Bay restoration. We
    reviewed the Chesapeake 2000 Agreement, State tributary strategies, data from the
    Chesapeake Bay Program Watershed Model, and other related documents. We did not
    audit the reliability of the data included in these reports.

    Appendix B provides further details on our scope and methodology, including prior
    evaluations of this program.

Structure of Report
    Regarding the four questions in our “Purpose” section, we found the following regarding
    each:

       Question 1: Agricultural producers have chosen conservation practices that have been
       deemed cost effective, eligible for USDA cost share funding, and/or required by
       Federal/State regulations.

       Question 2: A number of alternative approaches were identified, but there is no one
       approach or practice that can address the area’s nutrient imbalance. EPA/CBPO is
       working with USDA’s Agricultural Research Service on developing new approaches.

       Question 3: While each practice has its own challenge, generally, many of the
       conservation practices included in the State Tributary Strategies were not cost effective
       for the producer or suitable to the region.

       Question 4: Current management practices will fail to achieve Chesapeake Bay goals
       due to Bay partners' insufficient financial support and coordination.




                                             9
These issues are discussed in further detail in the subsequent chapters of this report. These
subsequent chapters are broken up as follows:

       Chapter 2: The overall progress of Bay partners in achieving nutrient/sediment goals.
       Chapter 3: EPA’s efforts to coordinate with the agricultural community.
       Chapter 4: USDA’s role as a Bay partner.

Due to the overlapping nature of the issues discussed in those three chapters, we are
providing an overall conclusion and all of our recommendations in Chapter 5.




                                         10
                                Chapter 2
Chesapeake Bay Watershed Will Not Be Restored by
         2010 at Current Level of Effort

    Despite significant efforts to improve water quality in the Chesapeake Bay watershed,
    excess nutrients and sediment continue to impair the Bay’s water quality. At the current
    rate of progress, the watershed will remain impaired for decades, exceeding the 2010
    cleanup deadline. Improving water quality conditions in the Bay is necessary to support
    living resources throughout the ecosystem, which in turn supports commercial and
    recreational uses, such as fishing/shellfishing. Establishing water quality standards and
    determining an equitable method to distribute the load reductions among partners were
    initially priorities. Now, more than half-way to the 2010 deadline for attaining their goals,
    States are just beginning to prepare implementation plans, and are finding that available
    resources are unlikely to support substantial financing needed to implement all the
    practices included in their strategies. Federal programs can contribute resources, but the
    current level of funding cannot be expected to fill the gaps. In their tributary strategies,
    States committed the agricultural community to making the largest nutrient reductions.
    However, no one method is used to achieve reductions, numerous practices abound, and
    implementation of these practices is carried out by thousands of land owners primarily on a
    voluntary basis. As the lead Federal agency responsible for coordinating project efforts,
    EPA/CBPO needs to strengthen its partnership not only with the agricultural community,
    but also with its Federal and State partners to utilize that extensive field organization. By
    doing so, EPA/CBPO will be able to obtain greater commitment from all sectors.

Establishing Water Quality Standards and an Equitable
Allocation to Reduce Nutrients and Sediment First Priority

    The Bay partners set the nutrient and sediment reduction goals based on the need to
    improve water quality so that the Bay and its tributaries could be removed from the
    impaired waters list by 2010. Accordingly, the Bay partners’ first priority was to develop
    and agree to an equitable allocation for reductions by each partner and set water quality
    standards. EPA’s 2003 Strategy for Water Quality Standards and Criteria provides that
    “water quality standards and criteria are the regulatory and scientific foundation of
    programs established under the Clean Water Act to protect the Nation’s waters.” However,
    completing the standards, tributary strategies, and implementation plans took the partners
    more than half-way through their 10-year timeframe. While these activities are a major
    accomplishment for the Bay partners, the implementation phase will likely take decades
    before the ultimate goal of a clean Bay is achieved.




                                             11
With the signing of the Chesapeake 2000 Agreement, the Bay partners agreed to:

   •   By 2001, define the water quality conditions necessary to protect aquatic living
       resources and then assign load reductions for nitrogen and phosphorus to each
       major tributary;

   •   By 2001, using a process parallel to that established for nutrients, determine the
       sediment load reductions necessary to achieve the water quality conditions that
       protect aquatic living resources, and assign load reductions for sediment to each
       major tributary;

   •   By 2003, the jurisdictions with tidal waters will use their best efforts to adopt new
       or revised water quality standards consistent with the defined water quality
       conditions.

On March 21, 2003, and April 15, 2003, the Chesapeake Bay Program Principals’ Staff
Committee and representatives of the headwater States adopted the nutrient and sediment
cap load allocations and submerged aquatic vegetation restoration goals for the Chesapeake
Bay. EPA/CBPO defined the water quality conditions in its April 2003 Ambient Water
Quality Criteria for Dissolved Oxygen, Water Clarity, and Chlorophyll a for the
Chesapeake Bay and Its Tidal Tributaries. This document provided EPA/CBPO’s
recommendations to the Chesapeake Bay States for use in establishing their water quality
standards. In October 2003, EPA/CBPO issued Technical Support Document for
Identification of Chesapeake Bay Designated Uses and Attainability to assist the States in
development and adoption of refined water quality standards.

The State partners with tidal waters agreed to revise their water quality standards and
submitted revisions to EPA for approval as shown in Table 3:

Table 3: EPA Approval of Water Quality Standards
                                     Date Standards                  Date Approved
            State                  Submitted to EPA                      by EPA
 Delaware                                 07/2004                       12/2004
 District of Columbia                     11/2005                       02/2006
 Maryland                                 08/2005                       08/2005
 Virginia                                 06/2005 *                     06/2005
                                          01/2006 *                     01/2006
*Virginia did not include chlorophyll a in the tidal James until its 2006 submission
Source: Chesapeake Bay Program

Through a six-State memorandum of understanding, the headwater and signatory States
adopted cap load allocations for nitrogen, phosphorus, and sediment that not only were
expected to be achieved, but also to be maintained even in the face of increasing
development in the watershed. The Bay partners need to ensure that increasing
development is well planned. Development increases impervious surface cover and
destroys open space, which reduces the capacity of the watershed to store and use nutrients
and sediment.


                                          12
         In making their allocation decisions, the partners factored in both equity and feasibility of
         achieving reductions. This systematic process conducted during 2003 established
         Bay-wide 2010 loading goals of 183 million pounds of nitrogen, 12.8 million pounds of
         phosphorus, and 4.15 million tons sediment per year. These levels were the amounts the
         Bay could accept while meeting water quality goals. Subsequently, allocations of nitrogen,
         phosphorus, and sediment loading were assigned to each State and each tributary basin
         within each State. Leaders of each State agreed to reduce nutrients and sediment to its
         target load allocation. Table 4 shows the 2004 loading to the Bay by State (including
         Washington, DC) and the 2010 loading allocated to each partner jurisdiction.

Table 4: Reductions Needed from 2004 Loading to 2010 Allocation Goals
                               Nitrogen                       Phosphorus                       Sediment
                        (million pounds/year            (million pounds/year)             (million tons/year)
                              2010     Reductions               2010   Reductions                2010    Reductions
    Jurisdiction      2004    Goal       Needed       2004      Goal    Needed          2004     Goal      Needed
Pennsylvania           107       72          35         3.6      2.3        1.4          1.14     0.99        0.14
Maryland                57       37          20         3.8      2.9        0.9          0.99     0.71        0.28
Virginia                74       51          23         9.2      6.0        3.2          2.27     1.94        0.33
Washington,
DC                       4        2           1         0.1      0.3     None            0.01     0.01        0.00
New York                17       13           5         0.9      0.6        0.4          0.14     0.13        0.00
Delaware                 5        3           2         0.4      0.3        0.1          0.05     0.04        0.01
West Virginia            7        5           2         0.7      0.4        0.3          0.32     0.32        0.00
  Bay-Wide 1           270    1832           87       18.7      12.8        6.2          4.92     4.15        0.78
 1Totals may not add up exactly due to rounding.
 2 Includes 8 million pounds of nitrogen from air deposition; EPA has committed to reducing this load through its

 air program controls. The total nitrogen load allocated to the State jurisdictions is 175 million pounds (with a
 reduction of 79 million pounds needed).
Source: Chesapeake Bay Program

         Based on Table 4, Bay partners must reduce approximately 87 million pounds of nitrogen,
         6.2 million pounds of phosphorus, and almost 0.8 million tons of sediment from entering
         the Bay each year from 2004 levels. However, these cuts are so great that the
         implementation levels needed to meet their cap load will not be possible with current
         programs and resources.

         The CBPO and its partners accomplished much in establishing a scientifically sound basis
         for reducing nutrients to the Bay during the 5 years following the signing of the 2000
         Agreement. CBPO’s Associate Director for Science stated that in 2000, when the 2010
         commitment was made, the partners did not know the full scope of the restoration
         challenge. He further noted that when the processes were largely completed and initial
         estimates of cost and effort were made, “local governments found the magnitude of the
         effort to meet Chesapeake Bay water quality standards sobering.”

Despite Early Progress, Restoration Could Be Decades Away
         By the year 2000, Bay partners had achieved approximately 80 percent of the nutrient goal
         set forth in the 1987 Chesapeake 2000 Agreement. Though that goal had not been met, the



                                                       13
2000 Agreement set new, more ambitious goals. However, attaining these new goals is
unlikely by the Agreement’s deadline of 2010 because the current rates of reduction fall
short of the amount needed. In fact, it could take decades to reach target loads and even
longer to reach ecological restoration goals.

The Chesapeake Bay Program estimated that between 1985 and 2004, modeled loads of
nitrogen, phosphorus, and sediment to the Bay have been reduced as detailed in Table 5:

Table 5: Bay-Wide Progress from 1985 to 2004
     Pollutant        Estimated Reductions*          Percent of Goal Reached
 Nitrogen                67 million pounds                    41%
 Phosphorus              8 million pounds                     58%
 Sediment                1 million tons                 54%
* Accounts for increased loads due to population growth
Source: Chesapeake Bay Program

These reductions are attributed to improved nutrient removal technology by wastewater
treatments plants, State bans on phosphates in detergents, and the various best management
practices implemented to control nonpoint source pollution. The above progress represents
net reductions throughout the watershed based on loads from all sectors. Therefore, overall
reductions have been made in the face of population growth.

Based on the modeled loading rates, the Bay partners will not meet their 2010 goals for
reducing those loads. For example, based on EPA/CBPO estimates of nitrogen reductions
between 1985 and 2004, loads decreased at a rate of 3.4 million pounds annually.
However, meeting the Bay loading goals by the 2010 deadline would require a reduction
rate of 16 million pounds of nitrogen each year from 2004 to 2010. Achieving the
remaining reductions may be even more challenging because the easier problems have been
addressed. Therefore, it is not likely the Bay partners will reduce nitrogen by 2010 to the
extent necessary; it may be decades before this level of reduction can be reached. Based on
EPA/CBPO’s modeled nutrient and sediment loading to the Bay between 1985 and 2004,
we calculated annualized rates of reductions (additional units reduced per year) to
determine an estimate of a timeframe to meet the 2010 cap loads. Details for annualized
modeled load reductions for nitrogen, phosphorus, and sediment are in Table 6.

Table 6: 1985-2004 Annualized Reduction Rates for Meeting Goals to Reduce Loads
                                           Nitrogen           Phosphorus        Sediment
                                       (million pounds)     (million pounds)   (million tons)
  Annualized reduction rate
  (additional units reduced per
  year)                                        3.4                  0.4            0.05
  Time to reach 2010 loading cap            28 years            15 years         15 years
  at annualized rate
Source: OIG analysis of Chesapeake Bay Program data




                                         14
    Meeting loading goals alone does not mean the Bay's water quality and aquatic resources
    will be immediately restored to desired conditions. Even if modeled load goals are met,
    Chesapeake Bay Program staff note that it could take another 10 years for pollution control
    practices to result in Bay water quality improvement. Further, since actual loads vary
    greatly based on a given year’s rainfall, modeled load reductions may not be apparent in
    the short term. Therefore, while it may be decades before reduction targets are reached,
    ecological restoration will take even longer.

Agricultural Community Key to Achieving Goals
    Agricultural operations are by far the largest source of nutrient and sediment loads to the
    Bay, representing over 40 percent of the nutrient load and 60 percent of the land-based
    sediment load. In developing their tributary strategies, State partners committed the
    agricultural community to reducing approximately 60 percent of the total nutrient loading
    and 90 percent of the sediment loading through the application of best management
    practices on cropland and animal operations, according to EPA/CBPO. This represents
    reductions of approximately 54 million pounds of nitrogen, 3.3 million pounds of
    phosphorus, and 0.67 million tons of sediment from 2004 levels by 2010.

    Aside from being a major source of nutrients and sediment to the Bay, another reason for
    placing an ambitious goal on the agricultural community is that implementation of
    agricultural practices has been determined to be cost effective. The Chesapeake Bay
    Commission evaluated a number of best management practices for the agriculture and
    urban sectors and selected six practices it deemed "most cost-effective and widely
    applicable." (The information about practice costs and efficiencies was assembled by the
    CBPO.) One practice identified was wastewater treatment plant upgrades (the subject of a
    subsequent OIG review) while the other five were agricultural practices:

        •   Diet and feed adjustments
        •   Traditional nutrient management
        •   Enhanced nutrient management
        •   Conservation tillage
        •   Cover crops

    If these five practices were implemented to the maximum extent possible, the Chesapeake
    Bay Commission estimated that Bay stakeholders could achieve nitrogen, phosphorus, and
    sediment reductions of 44, 30, and 100 percent, respectively, at an estimated cost of
    $630 million per year. This cost is far lower with greater benefits in comparison to other
    sectors and practices.

    Figure 3a shows each sector’s relative responsibility for achieving the Bay-wide nitrogen
    reduction goal (i.e., percent of the Bay-wide nitrogen reduction goal that each sector is
    expected to assume). Figure 3b shows the estimated relative cost associated with
    implementation in each sector.




                                             15
             Figure 3a: Nitrogen Reduction                           Figure 3b: Annualized Cost
                Per Tributary Strategies                                Per Tributary Strategies

                                                                          Point source
                                                                              5%
         Point source                                            Septic                  Agriculture
             20%                                                  15%                       13%




         Septic
          3%
                                Agriculture
                                   64%
   Urban runoff                                       Urban runoff
       13%                                                67%




                               Source: Chesapeake Bay Program

    The figures show that while States expect implementation of agricultural practices in the
    tributary strategies to make up 64 percent of reductions from all sectors, the estimated cost
    to achieve this goal is only 13 percent of the total cost, indicating the cost benefit of
    implementing the agricultural practices.

Substantial Financial Commitment Needed to Implement
Strategies
    Despite the general cost-effectiveness of agricultural best management practices, the cost
    of implementing them to the level necessary to achieve nutrient and sediment goals is
    significant. Implementing tributary strategies will require a substantial financial
    commitment from the States, which have recently started to identify and generate funding
    sources. Federal funding can help States, but needs to be better coordinated with tributary
    strategy goals (see Chapters 3 and 4). However, Federal funding at current levels cannot be
    expected to fill all the gaps.

    In their tributary strategies, States estimated capital costs for implementing agricultural
    practices at over $2 billion. See Table 7 for cost estimates by State (Maryland’s tributary
    strategy was not clear on how its total agricultural costs were calculated).

    Table 7: State Agricultural Cost Estimates
                  State          Estimated Cost (millions)
      Maryland                                $651



                                                 16
 Pennsylvania                            $593
 Virginia                                $740
 West Virginia                           $179
   Total                                $2,163
Sources: States’ Tributary Strategies
Figures for New York and Delaware are not available because these States have not yet
completed their tributary strategies. Maryland determined that it will only be able to fund
$280 million of its agricultural costs, leaving a shortfall of $371 million, or 57 percent.
Shortfall estimates for the other States were not available.

EPA/CBPO expected the State partners to develop implementation plans identifying how
the best management practices in the tributary strategies were to be funded and
implemented, along with any funding gaps. More than half-way to the 2010-year goal,
only Maryland and West Virginia had issued draft implementation plans.

Despite the lack of plans or comprehensive funding strategies, Maryland, Pennsylvania,
and Virginia have instituted or proposed various funding mechanisms to support Bay
commitments. However, the new revenues must also support other needed investments,
such as upgrading wastewater treatment facilities. For example, in 2004, Maryland
established the Chesapeake and Atlantic Coastal Bays Restoration Fund supported by a
$2.50 monthly fee on sewer bills and an annual $30 fee on septic system owners. The
sewer fees will be used to upgrade wastewater treatment plants while the septic fees will
provide $3 to $4 million annually for planting approximately 100,000 acres of cover crops
to prevent nutrient runoff. Cover crops, such as rye, wheat, or barley, maintain a vegetative
cover holding nutrients to the root. Nonetheless, these additional funds do not come close
to funding cover crop planting. According to Maryland’s tributary strategy coordinator, at
least 300,000 acres must be planted before Maryland can see an impact in water quality.
Maryland’s tributary strategy goal for cover crops is 600,000 acres.

While the Federal Government provides funding for agricultural programs it cannot fill the
gap. The amount of Federal funding is limited and some Federal programs limit benefits.
For example, in the case of cover crops, USDA limits funding of this activity up to a
maximum of 3 years to encourage agriculture producers to test its applicability to their
long-term goals. To be effective, cover crops need to be planted on a continuous basis.
EPA provides substantially less funding for agricultural practices than USDA, and does so
generally just for demonstration projects.

While USDA provides substantial funding and technical assistance to farm and forest
landowners as well as conservation organizations in the Chesapeake Bay watershed, the
Department does not specifically target its funding to meeting the Chesapeake Bay goals
(see Chapter 4). Other Federal program funding is not as significant, must be shared
between urban and agricultural sector projects, and is usually for demonstration projects.
These programs include: the Chesapeake Bay Small Watershed Grants and Targeted
Watersheds Grants Programs administered by the National Fish and Wildlife Foundation in
cooperation with EPA/CBPO, and the Nonpoint Source Management Grants Program
(Clean Water Action Section 319) administered by EPA Region 3.


                                            17
Funding for the Small Watershed Grants comes primarily from EPA with additional
funding from USDA’s Forest Service and Natural Resources Conservation Service, the
National Oceanic and Atmospheric Administration, the Chesapeake Bay Trust, and the
Keith Campbell Foundation for the Environment. In 2005, 88 projects from both urban and
agricultural sectors were selected to receive $3.06 million from the Small Watershed
Grants program. The Chesapeake Bay Targeted Watersheds Grant Program was
introduced in 2005 with a budget of $7.9 million and a subsequent budget of $6 million in
2006. The 2005 grant funds were awarded in 2006 as follows: $4.3 million for crop and
manure management, $1.5 million for market-based incentive projects, and $1.3 million for
urban/suburban stormwater management projects. The 2006 funds will be awarded in
2007.

EPA’s Region 3, in which most of the Chesapeake Bay watershed is located, administers
the Section 319 program that provides grants to control nonpoint source pollution. Again,
these grants are directed at a variety of sectors, not just agriculture or the Chesapeake Bay
watershed specifically.
Participation in this
program is voluntary.
Some typical agricultural
activities funded under
these grants include:
salaries for technical
assistants, construction of
animal waste storage
structures, and stream bank An animal waste storage tank (EPA OIG photo).
stabilization.

Table 8 shows how much funding the signatory States of Maryland, Pennsylvania, and
Virginia distributed to agricultural projects from 2003 to 2005. This funding was awarded
for Statewide activities, not just within the Chesapeake Bay watershed. The amount of
funding differs by each State and year. From 2003 to 2005, Virginia generally awarded
50 percent of the Section 319 funds to agricultural projects, Maryland a third or less, and
Pennsylvania a high of 17 percent in 2003.

Table 8: EPA Section 319 Funding for Agricultural Projects
               Total 319 Funds Awarded           Total Dollars to           Percent to
    Year          to Signatory States          Agricultural Projects   Agricultural Projects
    2003              $14,416,000                   $4,402,506                 31%
    2004               14,460,700                    3,505,163                 24%
    2005               12,573,500                    3,250,827                 26%
   Totals             $41,450,200                  $11,158,496                 27%
Sources: Maryland, Virginia, and Pennsylvania Nonpoint Source Programs

For the same period of time, USDA provided over $250 million to Maryland, Virginia, and
Pennsylvania for Statewide activities through its cost-share programs.


                                          18
    EPA’s Section 319 Nonpoint Source Management Program is also limited to funding
    demonstration projects. The grants essentially function as seed money; they do not support
    ongoing practices. With some exceptions, USDA cost-share programs support practices
    for a longer period of time. EPA issued guidelines in 2003 to facilitate the integration
    between Section 319 program goals and USDA conservation programs. The guidelines
    noted that the 2002 Farm Bill has provided more conservation funding for agricultural
    producers than any previous Farm Bill.

    As the lead Federal Agency, EPA/CBPO needs to coordinate the limited Federal funds,
    which often have different or competing missions and objectives, to ensure that they are
    used more effectively to accomplish the Bay goals. The EPA/CBPO is currently in the
    process of doing this. On January 10, 2005, the Chesapeake Bay Executive Council issued
    Directive 04-2, Meeting the Nutrient and Sediment Reduction Goals - Next Steps, with the
    purpose to address next steps that will advance Tributary Strategy implementation and
    identify measures to implement actions that can be taken quickly. The steps include:

       •   Determining Funding Priorities
       •   Engaging the Department of Agriculture
       •   Finding Opportunities in the Farm Bill
       •   Establishing a Watershed Funding Network
       •   Improving Coordination of Federal Agencies
       •   Managing Urban Stormwater
       •   Implementing and Enforcing Air and Water Laws

    The Chesapeake Bay Program recently established a mechanism – the Chesapeake Bay
    Watershed Assistance Network – to improve coordination among available Federal and
    State funding sources. The mandate has been written and contacts established, and the
    2006 work plan is to develop information from the major Federal sources about how to
    improve access to their funding programs for tributary strategy implementation. A report
    is being developed for presentation to the Fall 2006 Federal Principals’ meeting of the
    17 agencies that signed Directive 04-2.

Better Partnership Needed
    EPA recognizes that USDA is an influential partner in the agricultural community because
    of its extensive field organization and experience with the community and its many
    conservation programs. At the Federal level, EPA and USDA are key to accomplishing the
    environmental goals of the Chesapeake Bay watershed. However, in the past, their
    relationship has been one of two independent entities, often constrained by their mandated
    goals and directions, rather than partners with a common objective. Chapter 3 discusses
    how EPA can better coordinate Bay activities with USDA and other organizations, and
    Chapter 4 discusses how USDA can become a more visible and active presence in
    encouraging conservation practices in the Bay watershed. While this report focuses on
    activities of these two major Federal partners, EPA also needs to strengthen its relationship
    with other partners within the agricultural community, such as land grant universities, State


                                             19
    agricultural agencies, and professional agricultural organizations. These other
    organizations need to complement the efforts by EPA and USDA. Overall conclusions and
    recommendations are in Chapter 5.


                                Chapter 3
    EPA Needs to Improve Its Coordination and
   Collaboration with the Agricultural Community

    EPA must improve its coordination and collaboration with the agricultural community to
    assist the Bay partners in realizing the nutrient and sediment reductions needed to clean up
    the Chesapeake Bay watershed. State partners developed tributary strategies relying
    heavily on the agricultural community to reduce nutrients and sediments. However, few of
    the agricultural practices included in the strategies have been reported as implemented
    because they are either unprofitable or require significant change in farming techniques.
    The Clean Water Act states that EPA shall provide support to carry out the Chesapeake
    2000 Agreement. To meet the aggressive schedule of the Chesapeake 2000 Agreement,
    EPA will need to coordinate and collaborate with its other Federal partners as well as the
    State agencies, universities, and non-governmental organizations to work with the
    approximately 87,000 farms in the Bay watershed to adopt, on a long-term basis, the
    various practices in the tributary strategies. USDA, one of EPA’s Federal partners, could
    significantly assist in obtaining greater participation by the agricultural community.
    However, these Federal partners have been constrained by their mandated missions and
    have not significantly worked together to mesh their goals for the overall benefit of the Bay
    watershed. Furthermore, EPA will need to rely and build upon the extensive field
    operations and experience these other partners, including USDA, already have with the
    agricultural community. Without leveraging these resources, experience, and access
    available to these partners, EPA will miss the opportunity to achieve its overall goals.

Agricultural Practices in Tributary Strategies
Not Widely Implemented by Agricultural Community
    As of 2004, only 3 of the 26 agricultural best management practices for which State
    implementation goals were set were close to being met or had exceeded their 2010 targets.
    It is up to individual producers to implement the practices and, with few exceptions,
    producer implementation is voluntary. Producers face multiple challenges in implementing
    best management practices (see Appendix C for progress and challenges). If the producer
    does not believe a practice will be beneficial or technically feasible, the practice is less
    likely to be adopted. Likewise, practices that are supported by Federal and State cost share
    programs and perceived as profitable are more widely implemented. Without producer
    acceptance of practices, nutrient reductions will be limited, thus preventing Bay cleanup.




                                             20
In developing their tributary strategies, States chose a mix of best management practices
from a menu of practices that could either be measured by the Chesapeake Bay watershed
model or were in the process of peer review. States do not receive credit in the model for
implementation of practices that have not been fully defined or peer reviewed. Signatory
States developed implementation goals in their strategies for 26 of the practices that are
either credited in the model or still under peer review, though not all States committed to
goals for each best management practice.

As of 2004, though goals for 3 practices were nearly met or exceeded, 46 percent of the
practices included in the strategies (12 of the 26) were reported as not being implemented
at all. Table 9 shows the progress in best management practice implementation as of 2004.

Table 9: Reported Best Management Practice Implementation Progress - 2004
    Percent of Goal             Number of                Proportion of
     Implemented                Practices                26 Practices*
    0%                              12                       46%
    1% - 25%                         7                       27%
    26% - 50%                        0                        0%
    51% - 75%                        3                       12%
    76% - 100%                       2                        8%
    Over 100%                     2                           8%
*Percentages do not add up to 100 due to rounding
Source: OIG analysis of Chesapeake Bay Program data

The figures in Table 9 represent only the percentage of goal achieved in units implemented
(e.g., acres), not pounds of nutrients or sediment reduced. Actual reductions vary by soil
characteristics and other best management practices applied on the same land.

EPA/CBPO staff stated all but 1 of the 12 practices identified as not being implemented are
being applied to some degree in the Bay watershed, as a pilot-project or at small scales.
They believe current tracking cannot identify smaller-scale projects in a 64,000-square-
mile watershed. Without further evidence, we cannot change the above results. However,
being able to adequately track the project’s progress is a critical program activity. This is
an activity that the EPA/CBPO, States, and USDA may wish to collaborate on as part of
our recommended task force.

Based on our review of various studies of producers’ preferences with regard to adopting
conservation practices, we determined that the likelihood of producers implementing best
management practices is based on whether the practices are:

   •     Profitable
   •     Environmentally effective
   •     Required by Federal or State regulations
   •     Financed at least in part by government or other cost-share programs
   •     Easy to implement


                                          21
         The three practices with the most success in being implemented (conservation tillage, off-
         stream watering with fencing and rotational grazing, and nutrient management plans) meet
         the producer criteria of profitability, being required by regulation, and/or having financial
         support available. Conservation tillage saves a producer costs in time and equipment by
         requiring as little as one trip across a field for planting. Nutrient management plans and
         off-stream watering with fencing can be eligible for USDA cost-share programs. Nutrient
         management plans may also be required by law depending on the State.

         A significant percentage of the best management practices still have a zero rate of
         implementation because producers do not recognize many of the practices as being cost-
         effective, technically feasible, or in their long-term interests. For example, alternative
         crops such as switch grass used for carbon sequestration currently have no market, so it
         would not make sense for a producer to raise such a crop. Similarly, to plant cover crops, a
         producer must incur seed, herbicide, and labor costs, but cannot harvest or sell the crops.
         Planting commodity cover crops, also known as small grain enhancement, could help
         address the financial barrier to implementation in that these types of cover crops may be
         harvested and sold. According to EPA/CBPO’s Associate Director for Science, this
         practice is under research and is advocated in Maryland. Of the Bay partners, only
         Maryland has set a goal for commodity cover crops in its tributary strategy, but no
         implementation is reported as of 2004. The Maryland Department of Agriculture has
         introduced a new commodity cover crop program to its 2006-2007 cost share program.

         As stated earlier in this report, State or Federal funds are available in some areas to assist
         producers with cover crop planting costs. However, feasibility also plays a role in adoption
         of practices. For cover crops, efficiency depends highly on the timing of planting; nitrogen
         uptake and trapping diminishes rapidly if crops are planted too late in the Fall. Producers
         have difficulty getting cover crops planted early enough to be efficient due to weather and
         time of harvest, and because optimal planting time coincides with a farmer’s busiest time of
         year. State tributary strategy goals (i.e., cap loads) rely on early planting of cover crops on
         76 percent of available acres.

         Other practices included in the strategies – such as continuous no-till, precision agriculture,
         dairy precision feeding, and ammonia emissions reduction – are new and complex in
         nature, require investment in new equipment, or involve change in farming technique.
         A January 2001 USDA study, Adoption of Agricultural Production Practices: Lessons
         Learned from the U.S. Department of Agriculture Area Studies Project, reported that
         experienced farmers are less likely to implement newer, technologically complex practices
         because either they believe they have sufficient knowledge to manage crop nutrients and/or
         they are reluctant to switch practices they have used for years. Many in the agricultural
         population are nearing retirement age, and the next generation may not continue to farm the
         land. 3 The high land value in the Chesapeake Bay watershed area means that developers
         may offer producers an attractive sum of money for their land, further hindering adoption

3
  USDA’s analysis of national figures on farm succession indicated “mixed signals.” While 37.7 percent of all farms
reported multiple farm operators, an indication of succession potential, most of these other operators were most likely
spouses. USDA estimated that probably only 9.1 percent of farms nationally had evidence of a succession plan.


                                                          22
        of practices that require long-term investment. Therefore, it is important that the Bay
        partners identify how they will provide the technical or financial assistance necessary to
        encourage practices that result in economic benefits to producers as well as environmental
        improvement.
EPA Needs to Engage the Agricultural Community to Commit
to Implementing Tributary Strategies
        The Chesapeake Bay partners are relying on the agricultural community to make the largest
        share of reductions. Yet there is little evidence that the agricultural community is
        committed to carrying out many of the practices included in the tributary strategies to the
        level needed to significantly reduce nutrients. There are approximately 87,000 farms
        covering about 23 percent of the watershed. In operating their farms, agricultural
        producers rely on a variety of experts for technical advice, including veterinarians, feed
        suppliers, land grant university professionals, State agricultural office staff, cooperative
        extension agents, and USDA conservation staff. Therefore, if the Bay goals are to be met,
        EPA needs to mobilize the assistance of these experts and parties in obtaining greater
        commitment by the agricultural community in implementing the practices called for in the
        tributary strategies. Specifically, EPA needs to strengthen its partnership with USDA,
        including obtaining the attention of senior level USDA management and working with
        them to consider significant program or policy changes in USDA activities. EPA also
        needs to strengthen its working relationship with the other Bay partners.

        While not the only partner, USDA is a critical partner within the agricultural community.
        USDA agencies such as the Natural Resources Conservation Service (NRCS), Farm
        Service Agency, and Forest Service have earned the trust of the agricultural community
        over the decades by providing significant technical and financial assistance to producers.
        EPA has recognized the critical role USDA can play in the restoration effort and USDA has
        participated in the Bay program at the staff level. While EPA has been successful in
        obtaining USDA technical staff assistance, obtaining high-level USDA interest has not
        been as forthcoming (see also Chapter 4). This is a concern because to get the amount of
        nutrient reductions from the agricultural community within the aggressive time frame of
        the strategies may require USDA consideration of innovative practices or policy changes.
        For example, the Chesapeake Bay Watershed Blue Ribbon Finance Panel4 reported that
        USDA-authorized cost-share levels are not being used to their maximum levels, are not
        allowed to be geographically targeted, and do not include all commodities or conservation
        practices. Examining these policy issues requires involvement of senior level management.

        USDA entered into a Memorandum of Agreement with the Chesapeake Executive Council
        on January 25, 1994, that provided for an Agricultural Steering Committee and high level
        management participation. The EPA/CBPO Director said the USDA Secretary did not
        designate a senior level policy maker to the Steering Committee and the Agricultural
        Steering Committee was not established. However, the EPA/CBPO staff stated that USDA
        does provide technical expertise to the Nutrient Subcommittee, Modeling Subcommittee,

4
  The Chesapeake Bay Watershed Blue Ribbon Finance Panel was established by the Chesapeake Executive Council to
identify funding sources sufficient to implement basin-wide cleanup plans.


                                                      23
Land Growth and Stewardship Subcommittee, Tributary Strategy Workgroup, Forestry
Workgroup, Scientific and Technical Advisory Committee, Regional Manure and Litter
Use Task Force, and others.

On October 31, 2002, the Chesapeake Executive Council (made up of the governors of
Maryland, Pennsylvania, and Virginia; the Mayor of Washington, DC; the EPA
Administrator; and the Chesapeake Bay Commission Chair) issued a Resolution to
Enhance the Role of the United States Department of Agriculture in the Chesapeake Bay
Partnership. The resolution “urged” USDA to “make the Chesapeake Bay watershed a
priority objective by heightening coordination efforts with other Federal departments and
agencies.” It was not until June 2005 that the USDA/NRCS East Regional Assistant Chief
began attending meetings of the Chesapeake Executive Council’s Principals Staff
Committee (State and Federal agency representatives serving as policy advisors to the
Executive Council).

Some additional actions to improve the EPA and USDA partnership were highlighted by
EPA/CBPO. The NRCS Chief, representing the USDA Deputy Under Secretary, attended
the Federal Principals Meeting in October 2005. This meeting resulted in the issuance of
the Resolution to Enhance Federal Cooperative Conservation in the Chesapeake Bay
Program, which was signed by the USDA Deputy Under Secretary. Also, the USDA
Deputy Under Secretary signed the Chesapeake Bay’s manure strategy and met with State
governors in November 2005. In late July 2006, the EPA/CBPO’s Associate Director for
Science expanded its contact with USDA/NRCS’ State Conservationists beyond Maryland,
to Virginia and Pennsylvania. But these initial contacts with the USDA/NRCS State
Conservationists in the Bay watershed need to be followed up with attendance at the State
technical committee meetings, which are open to all interested stakeholders and provide
advisory feedback to the State Conservationists. We believe that these are good steps in
EPA/CBPO’s understanding of how local priorities are established, especially in areas of
the watershed that are further away from the Chesapeake Bay.

We commend EPA’s and USDA’s recent efforts in improving their partnership. But these
actions are working within the current program structure. In our opinion, to meet the
significant reductions needed from the agricultural community, EPA and USDA should
reexamine their priorities and consider policy changes. Such significant changes will need
to be negotiated by high-level managers from both agencies. We believe the two agencies
could start this process by developing mutual goals and measures that could benefit the
Bay’s water quality and the agricultural producers.

We identified some common elements to an effective partnership as follows:

   •   Common goals and objectives
   •   Partners’ recognition of benefit
   •   Mutual ownership of the goal and outcome
   •   Clearly stated terms and defined roles
   •   Trust and credibility
   •   Understanding each other’s perspective


                                        24
   •    Ability to monitor, evaluate, and measure performance of the outcome of the
        partnership efforts

We found that the EPA and USDA partnership lacks these common elements. Section
117(b)(2)(B)(iii) of the Clean Water Act states that EPA/CBPO shall provide support to the
Chesapeake Bay Executive Council “in cooperation with appropriate Federal, State, and
local authorities, assisting the signatories to the Chesapeake 2000 Agreement in developing
and implementing specific action plans to carry out the responsibilities of the signatories to
the Chesapeake 2000 Agreement.” As the lead Federal agency for the Chesapeake Bay
project, EPA needs to take the initiative to address these partnership weaknesses. EPA and
its partners spent a lot of time defining water quality and negotiating and determining an
equitable allocation to reduce nutrients and sediment to the Bay. Now these partners need
to develop mutual goals and measures for the implementation phase. Key partners need to
have their roles clearly defined. The agricultural community as a whole needs to know and
accept its role in the cleanup of the Chesapeake Bay. USDA, State agricultural agencies,
land grant universities, and professional organizations can assist in this endeavor.

Mutual goals
A key component of an effective partnership is having mutual goals and measures. Also,
each partner should be able to recognize the benefit of the partnership. EPA is focused on
improving water quality on a watershed basis. The agricultural community is concerned
with soil erosion, water quality protection, and maintaining a viable agricultural presence in
the region. USDA/NRCS stated that it works through an established partnership to help
private landowners meet their conservation goals. These goals are compatible. However,
as previously stated, some of the practices included in the tributary strategies identified as a
means to improve the water quality of the Bay may not be viewed as economically
beneficial by a producer. If EPA and its partners hope to gain greater participation from
the agricultural community, they need to:

        (1) identify and promote practices that may be more readily accepted; and/or

        (2) assist producers in minimizing their financial burden in implementing practices
            that may significantly reduce nutrient pollution but may not be cost-effective.

Trust
EPA does not enjoy the trust of the agricultural community and will need to establish
relationships with the various agricultural organizations to promote the Bay’s cleanup
goals. Though most of the practices in the tributary strategy would be implemented on a
voluntary basis, the agricultural community is concerned that EPA as a regulatory agency
may use this information to take enforcement actions. USDA/NRCS stated that it does not
want to jeopardize the trust it has developed over the decades with private landowners and
the agricultural community by a closer alignment with EPA because of the latter’s greater
focus on the regulatory approach in addressing corrective actions. It stressed its
responsibility as enacted by Congress to maintain the confidentiality of farmers’ and


                                          25
ranchers’ conservation plans and related resource information. It indicated that farmers
would be unwilling to take voluntary steps to improve their operation if they felt that
information could be used for future regulatory enforcement for purposes of the Clean Air
Act or the Clean Water Act. One step in gaining trust is for EPA to better understand
USDA’s mission and priority setting-process, and consider how it can incorporate USDA’s
goals of assisting landowners and producers into the Bay’s cleanup goals. EPA will also
need to explain its perspective to the agricultural community; it cannot assume that its
goals are self-evident.

Ability to monitor, evaluate, measure performance
Providing an accurate picture of the progress the agricultural community is making in
controlling nutrient pollution is a project on which EPA/CBPO and USDA should
collaborate. The agricultural community believes it has done much to reduce nutrient
pollution and questions its nutrient contribution as calculated by EPA/CBPO. Additionally,
EPA/CBPO indicated that more practices are being implemented than are tracked and
reported. We believe that both EPA/CBPO and USDA share the same mutual goals of
restoring the Chesapeake Bay and, therefore, share comparable performance measures and
outcomes. However, because measurement of nutrient and sediment runoff is not an easy
task, these two Federal partners need to pool their resources and expertise to develop
models that are mutually compatible yet address each of their program’s mandated goals
and performance measures. Working together to develop compatible but distinct
measurement tracking systems could overcome the often competing agenda that has
characterized their past working relationship.

EPA/CBPO developed a sophisticated quantitative best management practices tracking and
crediting system. EPA/CBPO relies on the watershed model as the primary means to
develop and track best management practice implementation and nutrient reduction goals
and progress. Program staff in USDA indicated they questioned EPA/CBPO watershed
model. In 2004, the Bay Program’s Scientific and Technical Advisory Committee
identified weaknesses in best management practice efficiency assumptions and
implementation estimates. For example, the current phase of the watershed model gives
full nutrient reduction credit for nutrient management plans written without assurance that
the plans are implemented. EPA/CBPO staff reported that they are addressing these
weaknesses in its next version – Phase 5 of the model – and will continue improvements in
the future as new information becomes available. They stated that the Phase 5 watershed
model, currently being calibrated, accounts for all manure and chemical fertilizer nutrient
inputs – making mostly irrelevant plans written versus plan implemented. In our opinion,
EPA/CBPO could further develop trust by the agricultural community if it coordinated its
modeling efforts with USDA.

Roles/Expectations
The EPA and USDA partnership could benefit greatly from establishing clearly stated
terms and defined roles in meeting the goals of cleaning up the Chesapeake Bay.
EPA/CBPO’s Director indicated that they were considering proposing that USDA sign a


                                        26
    Memorandum of Agreement. If USDA agrees to do this, this document should be very
    explicit, describing activities and timeframes expected from both parties. For example,
    EPA/CBPO stated that it would like to see technical assistance provided for enhanced
    nutrient management.

    Another tool that EPA/CBPO could use in enhancing its partnership with USDA is EPA’s
    own National Strategy for Agriculture issued in April 2006. The Strategy’s
    implementation goals include:

       •   EPA will identify the impact of EPA's rules, policies, etc., on agriculture as part of
           its routine practice.
       •   EPA will work with the agricultural sector through collaboration, innovative and
           voluntary programs, financial incentives, and traditional regulatory approaches.
       •   EPA will develop an effective communication strategy and marketing network to
           better communicate with agriculture, assist with technology transfer, and show
           environmental results.
       •   EPA will identify existing environmental measures and, where needed, modify
           them or develop new ones to demonstrate environmental improvements that can be
           achieved through new practices or technologies. Additionally, EPA should identify
           and assess environmental improvements related to agriculture and, where
           appropriate, use performance measures similar to or in harmony with those used by
           USDA.

    We believe that these are all good practices that EPA/CBPO needs to incorporate in
    strengthening its working relationship with all of its Bay partners, yet at the same time
    acknowledging the mandated mission of each agency, if it is to further the overall effort of
    cleaning up the Chesapeake Bay.

    While USDA can make a major contribution to the Bay’s cleanup, EPA/CBPO should not
    rely on USDA alone to assist in garnering the agricultural community’s commitment.
    Many of the practices require long-term commitment or a change in current farming
    operations. It is up to the individual producer to decide which practices to implement.
    EPA/CBPO does have a relationship with the local land grant universities which provide
    technical assistance to producers and should continue this relationship. EPA/CBPO should
    also cultivate ongoing relationships with professional agricultural organizations to better
    understand the business side of agricultural operations in order to move toward goals of
    both improved water quality and a productive and sustainable agricultural sector in the
    region.

Effective EPA-USDA Partnership Could Help Advance
Alternative Practices
    An effective EPA and USDA partnership could help further research, dissemination of
    information, and adoption of promising alternative practices.




                                             27
                                                           There is an imbalance of agricultural
                                                           nutrients in the Chesapeake Bay
                                                           watershed. That is, the total nutrient
                                                           inputs, including manure, chemical
                                                           fertilizer, and atmospheric deposition,
                                                           exceed crop uptake. In the regions of
                                                           the Chesapeake Bay watershed with
                                                           intensive animal agriculture, more
                                                           manure is generated than can be
                                                           applied as fertilizer to meet crop needs,
                                                           and the excess nutrients enter the Bay
                                                           and its tributaries. State tributary
Dry manure compost ready to be used as a soil              strategies outline best management
additive (EPA OIG photo)                                   practices to manage this excess.
                                                           However, given the rate of nutrient
    reduction progress to date, the substantial reductions still to be achieved, and the challenges
    associated with the current practices outlined in the strategies, sharply reducing nutrient
    and sediment loads to the Bay will require technological advances and systemic changes.

    Though a regional strategy and research agreement have been initiated to coordinate and
    research innovative approaches to managing excess nutrients, EPA and USDA must take
    actions to ensure that effective approaches reach and are accepted by their intended
    audience.

    EPA is attempting to address the nutrient imbalance at a regional level with a manure
    management strategy, signed by the Chesapeake Executive Council and USDA in
    November 2005. The 2005 strategy identified opportunities for better managing manure
    nutrients in the Bay watershed, such as reducing surplus nutrients by adjusting animal diets
    and building markets and technologies for alternative uses of manure and poultry litter.
    The strategy calls on the participation of EPA and Chesapeake Bay Program Committee
    members, State agricultural and water quality agencies, and USDA agencies to provide
    education and outreach, technical assistance, and/or financial resources.

    Also, EPA/CBPO has signed an agreement with USDA to better coordinate research
    efforts. EPA/CBPO, USDA’s Agricultural Research Service, and the Mid-Atlantic Water
    Quality Program of the Land Grant Universities signed a 5-year, Non-Funded Cooperative
    Agreement on October 5, 2005, to strengthen the cooperation among its signatories to reach
    the Chesapeake 2000 commitments and work together to reach goals of mutual interest in
    research, outreach, and education. However, the participants did not include specific
    projects or milestones in the agreement showing how the commitments would be achieved.

    Though the results of the strategy and agreement remain to be seen, the academic
    community, private industry, and USDA’s Agricultural Research Service have developed a
    variety of alternative products and approaches to deal with the abundance of manure, such
    as anaerobic digestion, a process that generates energy from manure (see Appendix D). As
    mentioned earlier, practices that are technologically advanced are not easily accepted by



                                               28
producers. Key stakeholders have recognized the need for demonstration projects to not
only identify and develop viable new conservation practices but to serve as a starting point
to evaluate their economic feasibility and then promote their launching.

Overall conclusions and recommendations are in Chapter 5.




                                         29
                                 Chapter 4
   USDA Needs to Improve Coordination to Restore
                 Chesapeake Bay

    While USDA has long been a Federal partner in the Chesapeake Bay Program, it has not
    significantly influenced the formulation and implementation of policy to address the
    environmental problems faced by the Program. Even though USDA agencies have been
    encouraging science-based conservation practices in the region for years, they have not
    significantly adapted their strategies to meet the specific needs of the Chesapeake Bay. In
    other words, USDA has approached the Bay’s unique environmental problems as if they
    were similar to the problems of any other region. This “business as usual” model will not
    suffice to see Chesapeake Bay removed from the impaired waters list by 2010. If this goal
    is to be accomplished, USDA working with the EPA must better communicate and
    coordinate its conservation efforts to better address the Chesapeake Bay’s unique needs.

Role of USDA
    Because many of the environmental problems faced by the Chesapeake Bay are related to
    farming practices, their solutions involve the implementation of environmentally
    progressive agricultural policies and models. The adoption of these policies and models
    requires the consent of individual producers and landowners – many of whom may not see
    an immediate incentive to cooperate. Thus, the ultimate success of the Chesapeake Bay
    Program depends upon encouraging landowners to adopt farming and natural resources
    conservation practices consonant with the Bay’s long-term environmental health.

    Of all the agencies in the Federal Government, USDA may be best positioned to persuade
    farming producers to adopt progressive agricultural practices and to help communities and
    private landowners conserve natural resources. The Chesapeake Bay’s 41 million acres of
    land consist of 24 million acres of forests and 12 million acres of farms – nearly 80 percent
    of this land is privately owned. The Forest Service is the largest Federal land manager in
    the Bay watershed with 1.2 million acres of National Forest System land. Moreover,
    USDA has an extensive field office organization with about 200 field service offices
    manned by staff providing technical and financial assistance to producers and landowners.

    During the 10-year period prior to fiscal year 2005, three USDA agencies provided
    significant funding to encourage landowners and communities to voluntarily adopt and
    install conservation practices in the Chesapeake Bay area: $305 million from the Natural
    Resources Conservation Service (NRCS); $287 million from the Farm Service Agency
    (FSA); and $61 million from the Forest Service (FS). Annual Departmental spending, in
    total dollars unadjusted for inflation, for conservation practices in the States involved in the
    Chesapeake Bay watershed has increased from $27 million in fiscal year 1995 to
    $142 million in fiscal year 2004. Since the signatory States have projected they will not be


                                               30
        able to meet the costs for implementing environmentally sound agricultural policies by
        2010, it is essential that Federal funds spent in this watershed contribute to the goals of the
        Chesapeake Bay Program.

Providing Leadership
        USDA has not implemented a coordinated Departmentwide approach to addressing the
        Bay’s unique environmental needs. Although USDA agencies have devoted significant
        funds to projects that will improve water quality in Chesapeake Bay, they have continued
        previously existing conservation programs.

        USDA has signed two agreements directly with the Chesapeake Executive Council.
        In January 1994, the USDA Assistant Secretary for Natural Resources and Environment
        signed a memorandum of agreement between USDA and the Chesapeake Executive
        Council. 5 This agreement committed USDA conservation agencies to work with State,
        local, and other Federal agencies to develop and implement the concept of total resource
        management planning on agricultural lands. This agreement also committed USDA’s
        science agencies to efficiently coordinate watershed-based research, and funding for that
        research, among Federal, State, and private entities. Six months later, in July 1994,
        USDA’s Deputy Secretary, along with the EPA Administrator, the Secretary of the Interior,
        and others, committed the Federal Government’s executive agencies to work with the
        Chesapeake Executive Council to improve water quality in the Chesapeake Bay
        watershed. 6 These agreements express USDA’s commitment, as a partner agency, to
        manage the watershed as a cohesive ecosystem and to achieve the goals of the Chesapeake
        2000 Agreement. But these agreements do not commit USDA to any specific action. As a
        result, USDA has continued, for the most part, to implement programs in the Chesapeake
        Bay watershed that, presumably, it would have implemented similarly without entering into
        these agreements at all.

        Without discounting the conservation efforts of USDA agencies, USDA, at the
        Departmental level, has done little to coordinate actions needed to directly fulfill these
        agreements. USDA did create a Water Quality Working Group – comprised of agency
        representatives from the conservation, science, and budget agencies – to exchange
        information between USDA agencies on water quality issues across the United States.
        While the Chesapeake Bay is part of the group’s activities, this group has a national
        function and thus the Bay would only be a small part of its deliberations.

        As a partner in the Chesapeake Bay Program, USDA is also indirectly a party to other
        agreements and directives signed by the Executive Council. Though some of these
        agreements call for actions that fall within USDA’s purview, there has not been a
        coordinated Department-wide strategy or policy on addressing this commitment. These
        agreements include the Chesapeake 2000 Agreement, signed in June 2000 by the
        Chesapeake Bay Program partners, which guides the restoration efforts throughout the Bay
5
  Memorandum of Agreement between the United States Department of Agriculture and the Chesapeake Bay Executive
Council.
6
  Agreement of Federal Agencies on Ecosystem Management in the Chesapeake Bay.


                                                     31
    watershed. Built on the foundation of Bay agreements signed in 1983 and 1987,
    Chesapeake 2000 is the most comprehensive and far-reaching agreement in the Bay
    Program's history.

    In 2005, after a recommendation by the Blue Ribbon Finance Panel to the Chesapeake
    Executive Council, USDA appointed a deputy under secretary as a high-level official to the
    Chesapeake Executive Council’s Principals’ Staff Committee. This position was
    immediately delegated to the NRCS Regional Chief, with the Maryland NRCS State
    Conservationist as the alternate representative. The NRCS Regional Chief is a high-level
    official within NRCS but has limited official authority beyond NRCS and the Natural
    Resources and Environment mission area. Delegating this duty in this way effectively
    meant that the position no longer possessed high-level influence through the Department
    and could not provide the Department-wide leadership needed to address the Bay’s
    environmental problems. Although the NRCS Regional Chief may be appropriately
    positioned to be the USDA high-level official appointed to the Chesapeake Executive
    Council’s Principals’ Staff Committee, this position lacks the authority that comes with
    Departmental standing. This authority is crucial to providing coordination for all USDA
    agencies, as other agencies in other mission areas will look only to the Department for
    guidance. A senior FSA manager, an agency under a different mission area, reported that
    his agency could not follow direction from NRCS or any another agency from a different
    mission area.

    While other USDA activities may have gone undocumented, it is clear that the Department
    has not provided the coordination necessary to fulfill the spirit of its agreements with the
    Chesapeake Executive Council. In such circumstances, the relevant agencies have
    continued to conduct “business as usual.” Remedying this situation will involve appointing
    a high-level, Departmental official to participate in the Chesapeake Executive Council and
    to coordinate, direct, and oversee the activities of the USDA agencies working in the
    watershed. Among that official’s initial tasks will be taking steps to help bring USDA’s
    conservation resources to effectively complement the ongoing restoration of the
    Chesapeake Bay watershed as a regional problem, and improving the relevant agencies’
    ability to report useful performance data.

Bringing USDA’s Resources to Bear
    USDA agencies contribute to the Chesapeake Bay Program’s conservation efforts in two
    broad categories – producer/landowner assistance and research funding. FS also
    contributes through direct natural resource management of public lands and through
    partnership building with communities and watershed groups. NRCS, FSA, and FS all
    provide financial assistance to encourage producers/landowners to become better stewards
    of the land. The Agricultural Research Service (ARS), Cooperative State Research,
    Education, and Extension Service (CSREES), and FS provide research, or funding for
    research, promoting the best available agricultural science and enhancing urban and rural
    forest ecosystems and their management.




                                             32
Financial Assistance for Producers
Although NRCS, FSA, and FS expend significant resources in the Chesapeake Bay
watershed, all three agencies, to varying degrees, tend to follow nationwide
program goals that are not necessarily well adapted to the regional needs of the Bay.
The diverse array of USDA programs (e.g., Environmental Quality Incentives
Program, Farmland Preservation, etc.) could clearly accomplish more for the Bay if
guidelines for their implementation were adjusted to maximize water quality and
ecological benefits. The Chesapeake Bay Program was created presupposing that
the Bay’s environmental problems can best be addressed regionally and
geographically; however, because USDA’s agencies are Federal and are therefore
designed to operate nationally (and to treat all States equally), they tend to resist the
kind of regional planning the Chesapeake Bay Program represents. Nevertheless,
we believe that the lessons learned in the Chesapeake Bay would be applicable in
this and other major watersheds and estuaries, such as the Mississippi River delta
and the Great Lakes regions.

       NRCS

       NRCS’ relationship to the Chesapeake Bay Program exemplifies this
       problem. As the largest USDA conservation agency in the watershed,
       NRCS helps producers identify which science-based conservation practices
       are needed to maintain and improve their natural resources, and then assists
       them financially in implementing those practices. NRCS does not, however,
       permit the establishment of geographic priorities in its allocation
       methodologies; instead, it tends to emphasize conservation from the
       perspective of the individual producer on a discrete piece of land.

       EPA’s Chesapeake Bay Program addresses similar problems, but
       approaches those problems from the perspective of an entire watershed.
       Early in the program’s history, natural resources agencies and local
       stakeholders devised “tributary strategies” to reduce the amount of nutrients
       and sediment flowing from producers’ land into tributary rivers and then
       into the Bay; these strategies constitute a long-term plan that will provide
       the most effective and efficient means of repairing the environmental
       damage to the Chesapeake Bay.

       While USDA managers participated in the creation of these tributary
       strategies, USDA agencies are not necessarily committed to implementing
       them. Officials at NRCS regard that agency’s role as continuing to meet
       agricultural producers’ needs with its available conservation practices, i.e.,
       to do what is best for the individual producer based on that producer’s
       discrete piece of land. Although the causes for the environmental problems
       facing the Bay are regional in scope, NRCS officials do not have enough
       flexibility to implement the Chesapeake Bay Program’s tributary strategies



                                   33
because of their agency’s prohibition against funding particular geographic
regions.

Consequently, NRCS has not augmented its conservation program funding
in the Bay’s watershed. Nationwide, NRCS conservation programs have
been turning away producers due to a lack of funding. In fiscal year 2005,
NRCS did not fund about 2,000 Environmental Quality Incentives Program
(EQIP) applications and 1,500 other conservation program applications in
the six States comprising the Chesapeake Bay watershed. Each of these
unfunded applications is a missed opportunity to help restore the
Chesapeake Bay’s water quality.

NRCS has also been turning away many applications for technical
assistance. Technical assistance is the vehicle NRCS uses to provide a
substantive level of technical expertise, background, and support for
Federal, tribal, State, and local conservation programs. This technical base
enables other NRCS programs by facilitating conservation planning,
interagency coordination, technical consultations, and collaboration with
agricultural decision makers. We found that NRCS conservation district
employees often did not have the time to record requests they knew could
not be funded. As a result, although technical assistance is vital, we were
unable to identify the exact number of requests for technical assistance in
the Chesapeake Bay States that went unfunded.

To meet the needs of unfunded conservation programs in the Chesapeake
Bay region, NRCS would need to target or redirect funds to the States in the
Bay’s watershed. However, NRCS officials repeatedly and consistently told
us that they cannot allocate funds for a particular region’s geographic needs.
Although there is no legislative requirement preventing NRCS from
targeting funds in this way, simply because NRCS could target funds
geographically does not mean NRCS should do so. Barring the possibility
of a budget increase, NRCS would have to shift funds away from other
States to those in the Chesapeake Bay watershed. NRCS officials have
explained that shifting funds from one area to another entails major
economic and political ramifications. Moreover, they stated that if they
allowed geographic considerations to enter into their allocation process, they
would be inundated with requests for special consideration from many
regions. While we found NRCS’ program allocation methodologies
reasonable, we question how NRCS can remain an effective Chesapeake
Bay Program partner if it cannot fund States to support the program’s
tributary strategies and it will not allocate funds to support the unique
geographical needs of the Chesapeake Bay watershed.

We conclude that how NRCS allocates its funds is a difficult issue, and one
that should be resolved by high-level cooperation between USDA officials.
In some instances, USDA does recognize the Chesapeake Bay’s special



                          34
needs and has specifically targeted funding to address those needs. In 2005
NRCS made $20 million in EQIP funds available for the Conservation
Innovation Grants, and has specifically targeted $5 million toward proposals
demonstrating the use of innovative technologies or approaches, or both, to
address one or more of the natural resource concerns within the Chesapeake
Bay watershed. Additionally, we note that NRCS has directed some funding
to provide liaison staff co-located with the EPA Chesapeake Bay Program.

Whatever the difficulties involved, given the Federal Government’s decision
to identify Chesapeake Bay as a priority for environmental cleanup, some
corresponding priority for funding must also be arrived at.

FSA

Unlike NRCS, FSA has recognized the unique needs of the Chesapeake Bay
watershed and has tailored its programs to meet those needs. FSA’s
contribution to water quality in the Chesapeake Bay watershed is largely
through its Conservation Reserve Program (CRP). CRP is a voluntary
program for agricultural landowners and includes the Conservation Reserve
Enhancement Program (CREP). In exchange for annual rental payments
and cost-share assistance, landowners agree to establish long-term, resource-
conserving cover crops on eligible farmland. Permanent cover crops
significantly reduce sedimentation and generally do not require fertilizer,
making CRP compatible with the Chesapeake Bay Program’s goals.

FSA created and recognized the Chesapeake Bay watershed as a
conservation priority area and devoted additional resources to it. As a
result, the acreage in the Chesapeake Bay watershed devoted to FSA’s CRP
has grown from 189,000 acres to 366,000 acres. FSA CRP rental payments
and cost-share assistance have also increased proportionately over a 10-year
period. In sum, FSA has grown its CRP in the watershed by 177,000 acres,
at an approximate 10-year cost of $287 million, of which $122 million was
for CREP rental and incentive payments in the Chesapeake Bay watershed.

Much of FSA’s CRP growth has been through CREP. CREP is a
partnership between USDA's Commodity Credit Corporation and State
governments to fund riparian buffers, grass filter strips, wildlife habitat, and
to restore wetland and other conservation practices on environmentally
sensitive land. CREP came into existence in 1997 in large part due to the
adoption of the Bay buffer goals in 1996 with Maryland as the first State in
the program. All six Chesapeake Bay States (New York, Pennsylvania,
Delaware, Maryland, West Virginia, and Virginia) are USDA partners in
this program. The two primary objectives of CREP are to coordinate
Federal and non-Federal resources to address specific conservation
objectives of a State and the nation in a cost-effective manner, and to




                           35
improve water quality, erosion control, and wildlife habitat related to
agricultural use in specific geographic areas.

There are four important ways in which CREP differs from CRP. First,
CREP is targeted to specific geographic areas. It is designed to focus
conservation practices on addressing specific environmental concerns.
Second, CREP is a joint undertaking among States, the Federal Government,
and other stakeholders who have an interest in addressing particular
environmental issues. Third, it is results oriented, and requires States to
establish measurable objectives and conduct annual monitoring to measure
progress toward implementing those objectives. Fourth, it is flexible, within
existing legal constraints, and can be adapted to meet local conditions on the
ground.

FS

The role of the Forest Service (FS) differs significantly from both NRCS
and FSA since FS programs do not focus primarily on farmers and
agricultural producers or on the delivery of incentives for landowners. The
FS provides assistance to State forestry agencies and nongovernmental
organizations, which in turn provide services directly to farmers and forest
landowners. The FS also works through various partnerships to serve urban
communities. The agency’s contributions to Bay restoration involve natural
resource management including private forest land, forest research, and
public land management.

Because of the vital role of trees and forests in sustaining high water quality,
the FS addresses the dual objectives of conserving and managing existing
forests as well as using trees and forests as solutions to water quality
problems associated with agricultural and urban lands. Many farmers are
also forestland owners or tree farmers. As a result, FS works with States to
expand forests in agricultural areas – particularly as buffers in riparian
areas – since these buffers can substantially reduce the rate of nutrient and
sediment flow from farmland while also providing habitat for wildlife.

Since the early 1990s, FS has maintained a small staff stationed at the
EPA/CBPO; this staff has served in a leadership and coordination role for
forestry. The Chesapeake Bay Watershed Forestry Program was established
through this office to provide leadership specifically on Bay agreements as
they relate to forestry, to coordinate forestry programs on a regional basis,
and to develop strategies in collaboration with the EPA for using forestry to
address water quality issues. This staff has contributed to policy initiatives
by the Chesapeake Executive Council (FS supported the Riparian Forest
Buffer Directives of 1994, 1996, and 2003; the Chesapeake 2000
Agreement, and the Cooperative Conservation Resolution), has coordinated
the Chesapeake Bay Program’s Forestry Workgroup for 15 years, and



                           36
                          significantly advanced riparian buffer restoration, forest conservation, and
                          the use of urban forestry for stormwater and air quality. The program also
                          provides grant funding and technical assistance.

                          Although not directly responsive to the Bay restoration, the National Forests
                          also conduct erosion control, management, and restoration projects that
                          indirectly improve water quality in Bay tributaries. The Forest Service
                          Research Program has implemented a limited number of reviews in direct
                          response to Bay restoration issues.

                          The FS’ primary contribution to water quality in the Chesapeake Bay
                          watershed is through its grants to State Forestry agencies and
                          nongovernmental partners under the Forest Stewardship Program, Urban
                          and Community Forestry Program, and Forest Legacy Program authorized
                          by the Cooperative Forestry Assistance Act. State Forestry grants support
                          many forest management and protection activities that are directly or
                          indirectly oriented to improving Bay water quality. Over the 10 years
                          ending in fiscal year 2004, FS spent $61 million in the Chesapeake Bay
                          watershed. Approximately $11 million of the $61 million FS spent was over
                          and above routine spending and directly targeted to improving water quality
                          or addressing other Bay restoration goals.

                 Funding for Research
                 A similar contradiction exists between the national objectives of USDA’s science
                 agencies and the regional needs of the Chesapeake Bay Program. Neither ARS nor
                 CSREES has any means of providing funding specifically for the Bay. In other
                 words, CSREES and ARS do not perform or fund water quality research within the
                 Chesapeake Bay watershed with any higher priority than they do elsewhere. Both
                 CSREES and ARS share national responsibility for conducting water quality
                 research. Land grant institutions within the Chesapeake Bay watershed use
                 CSREES funds for regional and national research, just as ARS conducts research in
                 other parts of the U.S. that is applicable to water quality within the Chesapeake
                 Bay. Within USDA, research funding for Chesapeake Bay watershed studies
                 competes with other research projects nationwide, including the need to assess
                 nutrient loads that exacerbate harmful algae blooms in the Gulf of Mexico,
                 containment loading studies within the Colorado and Rio Grande (and many other
                 river basins), and research on how to mitigate and slow the decline of water
                 resources in U.S. aquifers. Such water quality research may apply to many bodies
                 of water, including the Chesapeake Bay. Land grant institutions within the
                 watershed use CSREES funds for vital research, 7 just as ARS performs research
                 applicable to water quality in Chesapeake Bay. But neither agency can demonstrate
                 any research funded to better understand or resolve a problem specific to the

7
 During the 10-year period ending in fiscal year 2004, CSREES provided almost $7 million for research on issues that
are consistent with the Chesapeake Bay Program goals.


                                                        37
           Chesapeake Bay, and neither agency has the flexibility to change its mission to
           address EPA’s tributary strategies.

           In October 2005, ARS signed a “Non-funded Cooperative Agreement” (NFCA)
           with the EPA Chesapeake Bay Program and the Mid-Atlantic Regional Water
           Quality Program of the Land Grant Universities. The stated purpose of the NFCA
           is to strengthen cooperation among the parties to fulfill the commitments of the
           Chesapeake 2000 Agreement.

    One of USDA’s challenges in providing stronger leadership within the Chesapeake Bay
    Program is enabling its agencies to reasonably allocate resources to resolve regional
    challenges. Although the existence of the Chesapeake Bay Program indicates that EPA has
    moved to confront environmental problems by watershed, USDA does not, in general,
    work in similar terms. The institutional difficulty involved in reorienting these agencies to
    address watersheds – rather than States – as the fundamental unit for environmental
    cleanup is formidable; however, by making the Chesapeake Bay a high priority we believe
    that the Federal Government has indicated that this reorientation is essential.

Evaluating USDA’s Performance
    Because strengthening USDA’s role in the Chesapeake Bay Program requires identifying
    how different agencies within USDA can contribute to the program and coordinating those
    agencies’ contributions, it is vital that the Department be able to evaluate the relative
    success of its different programs. Although several agencies are running programs
    contributing to the Chesapeake Bay Program’s goals, they have not developed effective
    processes for collecting and summarizing accomplishment data. In other words, these
    agencies are able to cite the number of conservation projects they have funded in the
    Chesapeake Bay watershed, but not how those projects have contributed to the Bay’s water
    quality. USDA thus cannot evaluate how its programs are contributing to the goals of the
    Chesapeake Bay Program. Without this information, effective overall coordination of Bay
    restoration efforts is difficult, if not impossible.

    Since the Government Performance and Results Act of 1993, the Federal Government has
    begun to move away from evaluating its programs’ performance based on how much they
    do, and towards evaluating how effectively their actions accomplish clearly defined goals –
    i.e., away from evaluating output and towards evaluating outcome. Instead of stating, for
    instance, how many acres of agricultural land in a watershed have been taken out of
    production (output), FSA would be expected to state how effectively these actions have
    improved water quality in that watershed (outcome). Though implementing these results-
    oriented performance measures is a challenging process, agencies will be expected, over
    time, to identify high-quality outcome measures, accurately monitor the performance of
    programs, and begin integrating this information with the costs associated with their
    actions. Since achieving the Chesapeake Bay Program’s goals involves evaluating how
    effectively a variety of programs are improving the water quality of the Bay and allocating
    resources accordingly, it is imperative that the participating agencies develop useful
    outcome-based performance measures.


                                             38
Although NRCS, FSA, and FS each have goals that include working to improve water
quality in the Chesapeake Bay, these agencies have not yet developed and implemented
performance measures capable of providing useful, outcome-oriented information. Until
they have done so, they cannot state the degree to which their programs have succeeded.
Likewise, without accurate performance information, USDA can have little assurance that
agencies’ reported performance reflects their actual performance.

       Evaluating NRCS’ Performance

       At the time of our fieldwork, NRCS had four strategic goals: “enhance natural
       resource productivity to enable a strong agricultural and natural resource sector,”
       “reduce the unintended adverse effects of natural resource development to ensure a
       high-quality environment,” “reduce risks from drought and flooding to protect
       individual and community health and safety,” and “deliver high quality services to
       the public to enable natural resources stewardship.” Among its 11 objectives to
       support these strategic goals, NRCS aims to protect water and air resources from
       agricultural nonpoint sources of pollution, and maintains, restores, or enhances
       wetland ecosystems and fish and wildlife habitats by:

          •   providing areawide planning and coordinating assistance in watersheds with
              nonpoint source pollution problems;
          •   intensifying efforts to protect rivers and streams from the effects of nutrient
              loading; and
          •   promoting stream, bank restoration, and riparian area establishment.

       To gauge how well NRCS is achieving its goals, the agency identified performance
       measures that associate program activities with appropriate units of input; these
       units measure how many acres or miles have been treated with a given conservation
       practice rather than how effectively that practice has improved water quality. In
       other words, these units do not measure outcome, but output. Thus, NRCS can
       reasonably show the number of conservation practices completed or the number of
       acres in the Wetland Reserve Program, but it cannot show the effect of the first acre
       or mile on water quality. Without outcome-based performance measures, NRCS
       cannot confidently state the degree to which its programs have succeeded.

       To correct this shortcoming, NRCS is developing the Conservation Effects
       Assessment Project (CEAP). The agency asserts that CEAP will provide
       scientifically credible estimates of the environmental benefits obtained from NRCS
       conservation programs. Begun in 2003, CEAP is collecting data to determine the
       best methodology and remains a work in progress. CEAP results will be supported
       with data from up to five components (cropland, wetland, wildlife, livestock, and
       grazing). NRCS anticipates releasing the final data results on the cropland
       component of CEAP, which is furthest along in testing and gathering data, by
       January 2008. However, preliminary cropland component data may be available as
       soon as January 2007.




                                        39
While NRCS’ conservation practices have almost certainly resulted in some
improvement in Chesapeake Bay’s water quality, the agency cannot quantify any
given practice’s effect on water quality – precisely the information USDA and EPA
need for planning purposes.

In May 2006, NRCS published a new strategic plan for 2005 – 2010 entitled,
Productive Lands - Healthy Environment NRCS Strategic Plan. The new strategic
plan has six new goals (High Quality, Productive Soils; Clean and Abundant Water;
Healthy Plant and Animal Communities; Clean Air; An Adequate Energy Supply;
and Working Farm and Ranch Lands) with outcome-based performance measures.
For example, for the Clean and Abundant Water goal, NRCS has a clear outcome-
based performance measure that addresses agricultural sediment and nutrient
influence on water quality, The performance measure calls for agricultural
producers to reduce potential delivery of a specific number of tons of sediment and
nutrients from their operations. Specifically, agricultural producers are to reduce
sediment delivery from agricultural operations by 70 million tons (of a total 970
million tons from agricultural operations in 2003); reduce delivery of nitrogen from
agricultural operations by 375,000 tons (of an estimated 6 million tons in 2003);
and reduce delivery of phosphorus from agricultural operations by 70,000 tons (of
an estimated 360,000 tons in 2003). Once these performance measures are fully
implemented, they will provide USDA with useful outcome-based data concerning
the success of NRCS’ programs in the Chesapeake Bay watershed area.

Evaluating FSA’s Performance

FSA has three strategic goals: “supporting productive farms and ranches,”
“supporting secure and affordable food and fiber,” and “conserving natural
resources and enhancing the environment.” To accomplish this third goal, FSA
strives to reduce erosion rates, reduce ground and surface water contamination,
increase the populations of targeted species, and sequester more tons of carbon
dioxide. To gauge how well FSA is accomplishing its goals, the agency has
identified a number of performance measures, including:

   •   maintaining or increasing the percentage of acres in compliance with highly
       erodible land and wetland provisions;
   •   increasing the percentage of conservation acres with invasive species
       controls;
   •   increasing acres managed under Continuous Conservation Reserve Program
       sign-up;
   •   increasing CRP acres of riparian and grass buffers; and
   •   increasing CRP-restored wetlands acres.

Like NRCS’ performance measures, FSA’s performance measures record how
many acres or miles have been treated with a given conservation practice rather
than how effectively that practice has improved water quality. In other words, FSA
can show the number of acres enrolled in CRP or the number of miles of riparian


                                 40
buffers enrolled in CRP, but it cannot show the effect of the first acre or mile on
water quality. Without outcome-based performance measures, FSA cannot state the
degree to which its programs have succeeded.

To correct this shortcoming, FSA officials informed us they will soon announce a
new system to quantitatively show the achievement of its outcomes. Currently,
however, this new system remains a work in progress.

While FSA’s conservation practices have almost certainly resulted in some
improvement in Chesapeake Bay’s water quality, the agency cannot quantify any
given practice’s effect on water quality – precisely the information USDA and EPA
need for planning purposes.

Evaluating FS’ Performance

Among its national strategic goals, FS aims to “increase the area of forest and
grassland watersheds in fully functional and productive condition.” To achieve that
goal, FS determined that it should focus on the following objectives:

   •   assess and restore high-priority watersheds and maintain riparian habitat in
       these watersheds;
   •   monitor water quality impacts of activities on National Forest System lands;
   •   restore and maintain native and desired nonnative plant and animal species
       diversity in terrestrial and aquatic ecosystems; and
   •   reduce the rate of species endangerment by contributing to species recovery.

To gauge how well it is achieving its objectives, FS identified several performance
measures, including determining:

   •   the number of inventoried forest and grassland watersheds in fully
       functioning condition as a percent of all watersheds;
   •   acres of nonindustrial private forest land under approved stewardship
       management plans;
   •   the percent of projects on National Forest System lands fully implementing
       best management practices;
   •   allotment acres and percent administered to 100 percent of standard;
   •   terrestrial and aquatic habitats enhanced to achieve desired ecological
       conditions; and
   •   the value of partnership contributions that support habitat enhancement.

Like NRCS and FSA, FS is currently developing a more comprehensive system of
measures to better quantify how well its programs are meeting goals. Although
these measures are still being developed, it appears they will continue to report
primarily how many acres or miles have been treated with a given conservation
practice rather than how effectively that practice has improved water quality. FS
asserts that it currently makes rough estimates of the water quality and other


                                 41
       benefits of its tree planting practices – these are not, however, outcome-based
       performance measures.

       While FS’ conservation practices have almost certainly resulted in some
       improvement in the Chesapeake Bay’s water quality, the agency cannot quantify the
       effect on water quality of the majority of its actions – precisely the information
       USDA and EPA need for planning purposes.

One of USDA’s challenges to providing stronger leadership within the Chesapeake Bay
Program will be to establish effective, outcome-based performance measures for evaluating
how its conservation efforts are improving the Bay’s water quality. Though the significant
sums spent on conservation over the past 10 years have almost certainly improved the
quality of water in the Bay, the Department does not have adequate information to evaluate
their impact or to plan future efforts.

Overall conclusions and recommendations are in Chapter 5.




                                         42
                                 Chapter 5
            Conclusions and Recommendations

Conclusions
    The Chesapeake Bay watershed partners have measurably reduced nutrients flowing to the
    Bay since 1985, primarily by improving wastewater technology. However, their current
    rate of progress in reducing nutrients does not approach what is needed to remove the Bay
    and its tributaries from EPA’s impaired waters list by 2010. Most likely it will take
    decades to achieve the Bay water quality restoration goals.

    The latest nutrient reduction allocation relies on the agricultural community to voluntarily
    make the most significant contributions. For example, the agricultural community is
    expected to assume 64 percent of the Bay watershed’s total nitrogen reduction goal. The
    States prepared tributary strategies that were overly ambitious in reaching the 2010
    deadline and have not determined how all the practices will be financially supported. Most
    of the agricultural practices included in State tributary strategies have not been widely
    implemented by Bay farm producers. While the practices may be environmentally sound,
    they may not be economically beneficial to a business with a limited profit margin. USDA,
    a Bay partner, with its many conservation assistance programs and its extensive field
    offices and experience working with producers and landowners, can play a key role in
    recommending, developing, and implementing conservation practices that will help the
    agricultural community meet the Bay goals. To date, USDA and its many programs have
    not emphasized achieving the Bay goals. Even though USDA has expressed its
    commitment in signing two agreements with the Chesapeake Executive Council, there has
    not been a coordinated Department-wide strategy or policy on addressing this commitment.
    Furthermore, the Department has not been able to fully meet the requests by producers and
    landowners in the Bay watershed for technical assistance and other conservation assistance
    that could help meet the Bay Goals.

    EPA is responsible for obtaining the support of the appropriate State and Federal officials
    in achieving the objectives of the Chesapeake 2000 Agreement using a combination of
    regulatory authorities and consensus agreements among the partners. While EPA has
    achieved success coordinating goals with environmental programs (e.g., developing
    consistent water quality standards across State lines; a basinwide National Pollutant
    Discharge Elimination System regulatory permitting approach), EPA is still grappling with
    how to effectively coordinate with the agricultural community. The agricultural
    community has reduced nutrient runoff, but this sector will still have to substantially cut
    loads to meet expectations set in the tributary strategies. Current practices and policies are
    not resulting in the significant nutrient reductions needed to improve the Bay. Therefore it
    is crucial, at the Federal level, for EPA and USDA to partner to identify workable strategies
    and coordinate available resources. The partnership of EPA and USDA will also need to
    identify and fast-track the use of alternative practices to obtain the level of effort needed to


                                              43
   meet the current goals. EPA needs to be more aggressive in engaging the highest level of
   USDA management to identify new policies and practices that can both improve water
   quality and be compatible with agricultural operations. Continuing business as usual will
   not result in the substantial reductions required to restore the Bay.

Recommendations
   We recommend that the EPA Administrator:

          1. Propose executing a Memorandum of Agreement with the USDA to assist the
             Bay partners in meeting their nutrient reduction goals by:

                 a. Identifying conservation practices USDA will promote with either
                    technical assistance or cost-share programs.

                 b. Developing procedures for promoting and fast-tracking alternative
                    practices for cost-share programs and technical assistance.

                 c. Establishing a task force to identify how USDA cost-share programs can
                    better assist the States in carrying out their tributary strategies.

                 d. Establishing demonstration projects to emphasize producer benefits, not
                    just environmental benefits of best management practices in tributary
                    strategies.

                 e. Conducting research to quantify accurately the nutrient load reductions
                    from alternative best management practice strategies to ensure these
                    practices are the best for removing nutrients and to improve the models.

                 f. Developing a tracking system to determine a more accurate picture of
                    the agricultural community’s commitment to implementing the tributary
                    strategies.

   We recommend that the EPA Region 3 Regional Administrator instruct EPA/CBPO to:

          2. Work with USDA, the States, local governments, land grant universities, and
             agricultural organizations to revisit State tributary strategies to ensure that the
             mix of best management practices chosen are those most suitable to the area,
             have the greatest potential for implementation, and can effectively reduce
             nutrient and sediment loss.

          3. Include development of implementation plans as a special condition in
             Chesapeake Bay Program grant agreements for States that have not submitted
             an implementation plan.




                                             44
   We further recommend that the USDA Secretary or Deputy Secretary:

          4. Assign a senior level Departmental official to coordinate USDA goals and
             programs with EPA and the Chesapeake Bay Program. Delegate to that official
             authority to direct and coordinate goals and programs across USDA mission
             areas and agencies, and to monitor USDA actions to meet the Chesapeake Bay
             Program goals.

          5. Review the feasibility of targeting or redirecting USDA funds (or allocating
             USDA funds) on a regional and/or geographical basis to coordinate with the
             environmental restoration of the Chesapeake Bay, including the possibility of
             linking the availability of financial and technical assistance to proximity to the
             Chesapeake Bay watershed.

          6. Direct USDA agencies to expedite the development and implementation of
             outcome-based performance measurements for evaluating the effectiveness of
             their conservation efforts and programs.

   We also recommend that the USDA NRCS Chief:

          7. Develop a tracking system for maintaining a list of technical assistance and
             financial assistance requests from landowners and agricultural producers that
             cannot be completed due to limited funding.

EPA and USDA Responses and OIGs’ Comments
   EPA and USDA generally concurred with the findings, conclusions, and recommendations.
   EPA said it is continuing to work with its USDA partners to further enhance their
   collective efforts directed toward restoring Chesapeake Bay water quality. USDA will
   address the USDA responses and OIG position, as well as USDA actions needed to achieve
   final action, in a separate memorandum. See Appendices E and F for the entire responses.




                                            45
                                                                                                            Appendix A

                  Agricultural Best Management Practices
                      for Chesapeake Bay Watershed

   Best Management
        Practice                                                      Description
1. Conservation Tillage      Leaves crop residue (plant materials from past harvests) on the soil surface (minimum
                             30-percent cover). Reduces runoff and soil erosion, and keeps nutrients on the field.
2. Continuous No-Till        No-Till is a type of conservation tillage (above) where crop is seeded directly into
                             vegetative cover so minimal soil surface is disturbed (see previous index). Continuous
                             No-Till is the practice of no-till for each crop planting for up to 5 years.
3. Cover Crops               Non-harvested crops (e.g., rye, wheat, barley) planted to maintain vegetative cover on
   (early only)              cropland, holding nutrients at the root zone. Trapped nitrogen can be released and used
                             by the following year’s crop.
4. Small Grain               May be harvested for grain, hay, or silage. Some fertilizer is applied, but intent is to
   Enhancement -type of      modify normal small grain production practices by eliminating Fall and Winter fertilization
   cover crop (early)        so that the crops scavenge available soil nitrogen.
5. Land retirement (on       Takes marginal and highly erosive cropland out of production by planting permanent
   highly erodible land)     vegetative cover such as shrubs, grasses, and/or trees.
6. Riparian forest buffers   Linear wooded areas along rivers, stream, and shorelines (100-foot width recommended,
                             35-foot width required). Filter nutrients, sediments, and other pollutants from runoff and
                             remove nutrients from groundwater.
7. Riparian grass buffers    Linear strips of grass or other non-woody vegetation maintained between the edge of
                             fields and streams, rivers, or tidal waters (100-foot width recommended, 35-foot width
                             required). Filter nutrients, sediment, and other pollutants from runoff.
8. Wetland restoration       Re-establishes the natural hydraulic condition in a field that existed prior to the installation
                             of subsurface or surface drainage.
9. Tree planting             Includes any tree planting on agricultural land (riparian buffers not included), converting
                             agricultural land to forest. Targets lands that are highly erodible or identified as critical
                             resource areas.
10. Nutrient Management      Plans are developed to match crop nutrient needs with the expected crop yield based on
    Plan Implementation      soil productivity data or site yield history. Plans recommend appropriate rates of nutrient
                             application, timing of applications and placement of nutrients to result in economically
                             optimum crop yields while managing the level of nutrient loss.
11. Yield reserve            Reduces nitrogen application 15 percent below nutrient management plan
    (Enhanced Nutrient       recommendation (recommendation is typically set 35 percent higher than crop needs).
    Management)              An incentive or crop insurance is used to cover the risk of yield loss.
12. Soil Conservation        Plans that meet criteria of the USDA-NRCS Field Office Technical Guide. Includes
    Plans                    cultural and structural practices that control erosion, such as grass waterways, terraces,
                             diversions, sediment basins, or drop structures.
13. Managed precision        Uses multiple management systems beyond standard nutrient management practices to
    agriculture              further minimize nutrient loss. Identifies variables such as soil types, weather conditions,
                             and yield data to more specifically apply and vary nutrients within field areas.
14. Animal Waste             Allow for collection and containment of waste generated by confined animals. They are
    Management Systems       designed for the proper handling, storage, and utilization of wastes. Lagoons, ponds, or
                             steel concrete tanks are used for the treatment and/or storage of liquid wastes. Storage
                             sheds or pits are common for solid wastes.
15. Phytase feed additive-   Phytase is a manufactured enzyme that improves the digestibility of organic phosphorus
    poultry                  compounds contained in corn, soybean meal, and other poultry feed. Manure
                             phosphorus reductions occur because less phosphorus needs to be blended into feed.



                                                             46
   Best Management
        Practice                                                     Description
16. Phytase feed additive-   Same as above, but for swine.
    swine
17. Precision feeding –      Reduces excess dietary nutrients in feed to reduce manure nutrient content.
    dairy
18. Alternative uses of      Reduces excess nutrient application by transporting the manure outside of the watershed
    manure/ manure           or finding an alternative use for the excess manure. Alternative uses include: fertilization
    transport                of commercial tree plantations, new fuel technologies, and pelletizing for fertilizer.
19. Off-stream watering      Limit livestock access to streams with fencing and by providing an alternative drinking
    with fencing             water source. Fences can be planted with trees or grass, but are typically not wide
                             enough to constitute a buffer.
20. Off-stream watering      Use alternative drinking water systems that partially remove livestock and animal waste
    without fencing          from streams.
21. Off-stream watering      Combines stream fencing and alternative watering with cross fencing to enable rapid
    with stream fencing      grazing of small areas in sequence. Once an area is intensively grazed of most
    and rotational grazing   vegetation, animals are moved to another area to allow pasture recovery.
    (pasture)
22. Precision rotational     No Chesapeake Bay Program definition found.
    grazing
23. Horse pasture            Use of rotational grazing practices to minimize nutrient and sediment loss from horse
    management               pastures. Practices include: streambank fencing, cross-fencing, off-stream watering, and
                             stabilization of heavy use areas.
24. Ammonia emissions        Reduction in livestock housing ammonia emissions through use of capture or control
    reduction (poultry,      technologies.
    swine, dairy)
25. Non-urban stream         Stabilizes stream channel by restoring a stream’s natural hydrology and landscape.
    restoration
26. Carbon sequestration     Conversion of cropland to hayland (warm season grasses) and managed as a permanent
                             cover, providing a mechanism for sequestering carbon within the soil.

Sources: Chesapeake Bay Program, EPA’s Watershed Academy Website, and Chester County (Pennsylvania)
Tributary Strategy




                                                            47
                                                                                     Appendix B

                 Details on Scope and Methodology

We interviewed experts from academia and other fields involved in Chesapeake Bay restoration to
identify areas of concern. We also interviewed staff from EPA Region 3’s Chesapeake Bay
Program Office to identify the program’s goals, structure, and process. We interviewed staff from
USDA’s Natural Resources Conservation Service, Agricultural Research Service, Forest Service,
and Farm Service Agency, and EPA’s nonpoint source and concentrated animal feeding operation
programs, to determine how these programs influenced agricultural activities in the Chesapeake
Bay watershed. We interviewed environmental and agricultural staff from Maryland, Virginia, and
Pennsylvania State agencies to determine how State tributary strategies were developed and
implemented.

We reviewed State tributary strategies for Maryland, Pennsylvania, and Virginia to identify best
management practices selected by the States and their implementation goals. We also reviewed
data provided by the Chesapeake Bay Program Office showing the progress the States were
making in meeting their implementation targets as of 2004. In our analysis of progress and
challenges, we included the 26 agricultural best management practices for which one or more of
these three States had set an implementation goal. We did not validate the implementation rates
reported in the tributary strategies.

We also conducted site visits of farms implementing best management practices. These producers
volunteered in response to a request by the Virginia State Department of Conservation and
Recreation.

We also identified conservation practices not commonly used within the Chesapeake Bay
watershed to determine whether these practices or technologies could be adopted in the Bay area.
From the National Agricultural Library’s Conservation Effects Assessment Bibliography, we
selected 187 articles related to controlling nitrogen and phosphorus and improving water quality.
We then selected 14 articles that merited further research. Additional alternative conservation
practices were brought to our attention through interviews, conferences, and background reading.
We then asked staff from the Chesapeake Bay Program Office and an agricultural expert from the
University of Maryland to assess the benefits and limitations of the practices identified when
applied to the Chesapeake Bay watershed.

Management Controls

Due to a concurrent review of the Chesapeake Bay’s Program Office operations and watershed
model by the Government Accountability Office, we limited our review of management controls to
understanding EPA’s and USDA’s role in working with the agricultural community to encourage
the use of best management practices. See Chapters 3 and 4. EPA reported in its 2005 Annual
Performance and Accountability Report that current pollutant loads continue to exceed the level
needed to meet water quality standards. See Chapter 2 on the progress being made by the



                                                48
Chesapeake Bay partners in reducing nutrients and sediments. We did not audit the validity of
financial data and other data used in our report for informational purposes. EPA financial data is
subject to an annual audit by the Office of Inspector General. The Chesapeake Bay Program’s
Scientific and Technical Advisory Committee had reviewed assumptions used in the Bay’s
watershed model and these conclusions have been reported in Chapter 3.

Prior Reviews
The Government Accountability Office issued Agricultural Conservation: State Advisory
Committee’s Views on How USDA Programs Could Better Address Environmental Concerns
(GAO-02-295) in February 2002. The Government Accountability Office found that programs
targeted to specific environmental concerns were more effective at improving water quality than
those programs that address environmental issues more generally.

The Government Accountability Office issued Agricultural Conservation: USDA Needs to Better
Ensure Protection of Highly Erodible Cropland and Wetlands (GAO-03-418) in April 2003. The
Government Accountability Office reported that, nationally, almost half the Natural Resources
Conservation Service’s field offices do not implement the conservation compliance provisions of
the 1985 Food Security Act as required.

The Joint Legislative Audit and Review Commission of the Virginia General Assembly issued its
Review of Nutrient Management Planning in Virginia on January 6, 2005. In this report, the
Commission stated that nutrient management plans written were generally of good quality but
implementation was mixed and enforcement weak.

The Government Accountability Office issued Chesapeake Bay Program: Improved Strategies Are
Needed to Better Assess, Report and Manage Restoration Progress (GAO-06-96) in October 2005.
The Government Accountability Office reported that the Chesapeake Bay Program (1) had not yet
developed and implemented an integrated assessment approach for measuring progress; (2) did not
effectively communicate the status of the health of the Bay to the public; and (3) did not have a
comprehensive, coordinated implementation strategy to meet the goals of the Chesapeake 2000
Agreement.




                                                 49
                                                                                                            Appendix C

                  Agricultural Best Management Practices’
                          Progress and Challenges

      Best               Percent of Goal
   Management             Implemented
    Practice 8           Bay-Wide (2004)                    Factors Affecting Implementation and Impact
1. Conservation                98.4%           Widely implemented, but decreases land available for manure transport/land
   Tillage                                     application because it limits ability to incorporate manure into soil.
                                               Can increase infiltration and subsequent nutrient transport to groundwater.
2. Continuous                  0.0%            Benefits may take several years to be realized. Therefore, implementation
   No-Till                                     requires technical assistance and trust.
                                               Single year State contracts can hinder long term investment. Producers must
                                               invest in a no-till planter (~$15,000), expensive for a small farm and takes a
                                               higher level of management. Not practical for dairy farms because they use
                                               crop residue for silage.
3. Cover Crops                 0.0%            According to Chesapeake Bay Commission, traditional cropping patterns and
   (early only)                                winter grain crops make it difficult to apply cover crops to more than about half
                                               of row crop acreage in the Chesapeake Bay region each year.
                                               Efficiency depends highly on timing of planting - nitrogen uptake and trapping
                                               diminishes rapidly if crops are planted too late in season. Producers have
                                               difficulty getting cover crops planted early enough to be efficient due to
                                               weather and time of harvest, and because optimal planting time coincides with
                                               a farmer’s busiest time of year.
                                               Little economic incentive for cover crop planting - costs to producer include
                                               seed, herbicide, and labor, but crops are not harvested so there is no
                                               immediate economic benefit.
                                               Without an inherent benefit to the farmer, a consistent yearly funding source is
                                               necessary to obtain participation. For example, in Maryland, producers
                                               resisted implementation because funding was not sustainable. Now, a "flush
                                               tax" provides consistent funding, but funding is still substantially short of need.
4. Small Grain                 0.0%            This type of cover crop is also known as a "commodity cover crop" and thus
   Enhancement -                               may be harvested for grain, hay, or silage. This addresses the cost-
   type of cover crop                          effectiveness challenge of traditional cover crop implementation since the crop
   (early)                                     can be harvested to be used or sold, though upfront costs could hinder
                                               application. However, since fertilizer may be applied to these crops, its
                                               nitrogen reduction efficiency is less than that of traditional cover crops.
5. Land retirement             53.6%           Takes land out of production; USDA provides cost-share to farmers to convert
   (on highly erodible                         cropland to grassland and yearly per-acre payments to make up for lost
   land)                                       income. Consistent funding from farmer’s perspective (contracts are
                                               10-15 years), but costs to government do not always result in ultimate
                                               behavior change.




   8
    Though a goal was set for each of the practices above, several of these are part of a category of management options,
   and thus compete for the same available acreage. The goal is to convert one practice to another that can yield greater
   environmental benefit. For example, continuous no-till would replace conservation tillage, and enhanced nutrient
   management or precision agriculture would replace nutrient management implementation to achieve greater nutrient
   and sediment reduction. The off-stream watering practices 19, 20, and 21 and precision rotational grazing are
   considered pasture grazing best management practices and also compete with each other for the same available acres
   for implementation.


                                                             50
      Best              Percent of Goal
   Management            Implemented
    Practice 8          Bay-Wide (2004)                Factors Affecting Implementation and Impact
6. Riparian forest           11.9%        Effective at controlling nutrient and sediment loss. Could be more effective
   buffers                                when combined with other practices, though this concept is not always
                                          promoted. Significant up-front investment in plant materials, labor, and
                                          technical design, and several years of maintenance required, but buffers can
                                          then last with minimal management for many years.
7. Riparian grass            19.7%        Cost effective, but some concern with land leasing agreements.
   buffers
8. Wetland                   8.0%         Wet soils are taken out of production. Can serve to filter water and sequester
   restoration                            carbon.
9. Tree planting             10.6%        Farmers may be reluctant to plant trees because of the effort it takes to
                                          convert back to cropland.
10. Nutrient              Exceeds goal    Nitrogen-based plans will result in over-application of phosphorus because
    Management Plan                       phosphorus is more prevalent in manure than is needed by crops. States are
    Implementation                        just now shifting to phosphorus-based plans.
                                          Difficult for producers to know how to comply and translate plan into practice
                                          Some producers believe the plan is unrealistic and prescribes insufficient
                                          nutrients for crops.
                                          Requires adequate enforcement and compliance to ensure effectiveness
                                          When excess manure is transported off-site, there is little control over
                                          application by those accepting manure.
11. Yield reserve            0.0%         Agricultural community hesitant to adopt a practice that might reduce yields
    (Enhanced                             and profits. According to a Virginia official, the practice is "not field-friendly"
    Nutrient                              Therefore, the practice would require generous incentive payments and crop
    Management                            risk insurance.
                                          Wide annual variability makes it difficult to control for other factors impacting
                                          yields, such as climate and pests. Despite limitations, practice is still under
                                          consideration in Virginia, but needs greater proof of correlation between
                                          practice and reductions to warrant payment.
12. Soil Conservation        52.0%        Lack of technical assistance funding for plan revision/update.
    Plans
13. Managed                  0.0%         Though Pennsylvania has a target in its tributary strategy, stakeholders are
    precision                             unsure as to whether the goal can be achieved per the definition used on
    agriculture                           larger farms in Midwest.
                                          Other drawbacks include: perceived risk, labor and farm economics, high level
                                          of technical expertise required (and time and effort to learn new technology),
                                          cost/fear of a “leaky pipe” (i.e., if I buy this one piece of equipment, will I then
                                          need additional pieces?), and that the use of such technology may not
                                          ultimately change how and what decisions are made.
14. Animal Waste             68.8%        Cost to farmer may be prohibitive even with cost share assistance.
    Management
    Systems

15. Phytase feed             75.5%        Generally accepted and implemented at 16+% efficiency level for phosphorus;
    additive- poultry                     States have committed to a 30% reduction if science shows no harm to birds
                                          will occur.
                                          Phytase enzyme is widely utilized since it is introduced at feed mills and
                                          poultry industry is integrated (several company owners making all decisions
                                          regarding feed for the region).
                                          Phytase enzyme reduces phosphorus only; no equivalent for nitrogen has yet
                                          been introduced to the region.




                                                         51
      Best               Percent of Goal
   Management             Implemented
    Practice 8            Bay-Wide (2004)                 Factors Affecting Implementation and Impact
16. Phytase feed               0.0%           With the exception of Pennsylvania, Bay States have not set goals for swine
    additive- swine                           phytase/ phosphorus reduction. Chesapeake Bay Program Office attributes
                                              this to the difficulty in tracking operations using phytase. The swine industry
                                              has a different marketing and distribution set-up than the poultry industry,
                                              which makes it difficult to determine which operations are using it.
                                              Although adopted by some swine producers, efficiencies are not well
                                              developed.
17. Precision feeding          0.0%           The dairy industry is not integrated like swine and poultry; each dairy producer
    – dairy                                   makes individual decisions about feed with veterinarians and feed
                                              consultants. Thus, achieving behavior changes throughout the industry is a
                                              greater challenge. Further, any effort to effect such behavior change must
                                              address farmers' concerns regarding adverse impact on milk production.
                                              Also, this practice may not have an impact on cropland nutrient loss for small
                                              dairies since these operations tend to have a nutrient deficit for crops.
18. Alternative uses      14.8% (Nitrogen);   State subsidies in Maryland and Delaware cause displacement of markets
    of manure/           11.7% (Phosphorus)   (i.e., Pennsylvania haulers cannot compete, even in Pennsylvania); Virginia
    manure                                    has subsidy program but only within Virginia.
    transport                                 A pellet plant makes poultry litter easily transportable for fertilizer use where
                                              needed, but additional markets are needed. Pellets are not yet profitable;
                                              however, a plant representative indicated that Senator Mikulski has been
                                              assisting in getting pellet fertilizer on the Federal purchase list.
                                              Regardless of market development activities, majority of crop farmers
                                              (specifically those without livestock) are not willing to accept manure from
                                              animal feeding operations because nutrient content varies, cannot be easily
                                              verified (as opposed to commercial fertilizer in which the content is identified),
                                              and manure is not used by crops as efficiently as commercial fertilizer.
                                              Special equipment is needed to apply manure (cost) versus commercial
                                              fertilizer, which is more convenient to obtain and apply (application often
                                              included in delivery price). Manure is associated with odor and neighbors
                                              may complain. Manure application may bring the producer under scrutiny of
                                              State and Federal regulators.
                                              Competition from biosolids industry is also a significant limiting factor.
19. Off-stream                 21.6%          This off-stream watering practice requires investment in developing off-site
    watering with                             watering systems, though funding assistance is available. Other limiting
    fencing                                   factors include availability of water and labor required for maintenance and
                                              weed control.
20. Off-stream                 12.0%
    watering without
    fencing

21. Off-stream              Exceeds goal
    watering with
    stream fencing
    and rotational
    grazing (pasture)
22. Precision                  0.0%           Limiting factors similar to off-stream watering practice. Producer must be
    rotational grazing                        more involved in animal behavior. More management intensive, but less labor
                                              intensive than confined feeding. Though production may decrease, total profit
                                              may increase since the practice requires fewer inputs.
23. Horse pasture              0.0%           Practice needed to manage horses at large facilities not the same as Bay
    management                                model definition. Horse management is not considered under USDA
                                              jurisdiction, so pasture not eligible for Federal cost-share dollars. Owners
                                              often do not have an agricultural background and thus may not be familiar
                                              with proper manure management practices; technical assistance could
                                              promote better management.




                                                            52
      Best                Percent of Goal
   Management              Implemented
    Practice 8            Bay-Wide (2004)                   Factors Affecting Implementation and Impact
24. Ammonia                     0.0%           Included in strategy but not defined. High tech is now used on large farms in
    emissions                                  Midwest, but stakeholders are not yet sure how to adapt for small farms.
    reduction (poultry,                        Not economically feasible. Some pilot studies conducted, but there is yet no
    swine, dairy)                              meaningful way to measure efficiencies. USDA’s Natural Resources
                                               Conservation Service has a standard but it is new, broad, and not yet applied
                                               through tech assistance or other programs.
25. Non-urban stream            0.0%           If implementation involves fending, farmer must provide alternate water source
    restoration                                for livestock. Stream buffer must be certain width so cows can still graze with
                                               adequate protection for stream.
26. Carbon                      0.0%           Currently no market for alternative crops, nor infrastructure to support the
    sequestration                              practice. Widespread implementation would require a major shift in markets
                                               and require incentives.


   Sources: For progress, OIG analysis of Chesapeake Bay Program data. For challenges, interviews with EPA and
   USDA staff, State environmental and agricultural agency staff, agricultural associations, experts, and agricultural
   producers; and search of literature sources.




                                                             53
                                                                                                              Appendix D

               Alternative Agricultural Management Practices

         Practice                    Benefits                     Limitations                          Comments
Whole farm nutrient budget

Balanced nutrient         Producer's incentive -            Record-keeping burden       Mineral Accounting System program in
inputs and outputs-       avoidance of tax if nutrient      on producers, lack of       the Netherlands, which required
penalties leveled         balance is not achieved.          political will.             producers to balance nutrient flow, is now
                                                                                        faltering.
Best management           Holistic approach - producers     Technical assistance on     Scientific and Technical Advisory
                                                                                                    9
practices implemented     use modeling tools to             a farm-by-farm basis        Committee Report recommends moving
as a suite of practices   calculate inputs and outputs.     would be required.          from individual best management
                                                                                        practices to nutrient budget approach.
                                                                                        New York and Pennsylvania have
                                                                                        already developed modeling tools.
Forage systems
Cropping systems          Forage cropping systems in        Producer preference to
with crop cycles          two or three crop cycles as a     grow more profitable
                          means of removing nutrients.      feed crops. May be
                                                            limited by climate.
Specific plant species    1. Forage species such as         1. Lack of market for       Need a pilot study to see if ethanol/
                          legumes and Bermuda grass         forage crops. Corn,         carbon credits are economically feasible
                          identified as having high         wheat, and soybeans are
                          nutrient uptake properties.       most economically
                          2. Warm season grasses            feasible feed crops.
                          grown for ethanol production.     2. Special equipment
                          Root growth could be used         required, lack of
                          for carbon credit system.         infrastructure.
Haylage/other storage     1. Haylage as a method of         1. Increased production     Top growth from cover crop cut, stored
methods                   preserving forage to reduce       costs and greater risk of   as haylage and used for animal feed.
                          nitrate concentration in          spoilage.
                          grasses.                          2. No significant
                          2. Potential for higher quality   advantage to using
                          livestock feed.                   haylage versus other
                                                            storage methods.
Feeding regimes
(Animals are inefficient at using nutrients – about 70-75 percent of the nutrients that they consume are eventually excreted.)
Dairy cattle              1. Reduces phosphorus             Must get buy-in from        Focus on education and outreach to
Significant reduction     excreted and causes no            veterinarians and           veterinarians and nutritionists.
of phosphorus in diet     adverse response in dairy         nutritionists before        New York, Pennsylvania, Virginia, and
                          cattle.                           changing diet.              Maryland are working on dairy feed
                          2. Producer's incentive –                                     management.
                          cost of feed reduced.
                          3. Producer's incentive -
                          compliance with
                          environmental regulations.



     9
       Scientific and Technical Advisory Committee drafted a report in 2004, Innovation in Agricultural Conservation for
     the Chesapeake Bay: Evaluating Progress & Addressing Future Challenges, that identified emerging science-based
     practices, programs, and policies that will aid nutrient reduction.



                                                                 54
      Practice                     Benefits                     Limitations                          Comments
Dairy cattle             Promising as a means for         • Must get buy-in from      Large-scale demonstration projects are
Urea in milk (MUN)       assessing nitrogen in diet.      veterinarians and           needed.
as measure of            Would aid in making feed         nutritionists before
nitrogen in diet         adjustments.                     changing dairy diet.
                         Producer's incentive -           • Need to do a large-
                         reduced cost of feed.            scale pilot project to
                                                          assess economic
                                                          feasibility.
Poultry and swine        With the use of phytase as       Must establish the
Phytase and further      feed additive, amount of         minimum phosphorus
reductions of            phosphorus can be reduced        needs in diet for each
phosphorus in diet.      much further than initially      animal species
                         predicted. Possible
                         reductions 20% or more.
Precision agriculture
Real time monitoring     Application of less nutrients    Requires special
and nutrient mapping     than the recommended rate.       equipment and a lot of
                                                          technical assistance.
                                                          May not be feasible for
                                                          small farm operations.
Fertilizer application   Application of less nutrients    Requires equipment and
based on hydrology to    than the recommended rate.       a lot of technical
manage nitrogen                                           assistance. May not be
leaching                                                  feasible for small farm
                                                          operations.
Bio-energy
Anaerobic digestion       • Manure becomes a              • Further development of    USDA Agricultural Research Service
                         commodity.                       process and markets.        efforts are focused on bio-energy rather
                         • Methane can generate           • Lack of established       than feed adjustment.
                         energy and save energy           infrastructure.             Generation of energy from biomass is
                         costs for producer.              • Disposal of byproduct -   very promising. More large-scale
                         • Work well with wet, harder –   contains nutrients.         demonstration projects are needed.
                         to-dispose dairy manure          • Burning poultry litter
                                                          can release arsenic.
Cellulosic ethanol       1. Ethanol is a marketable       • Lack of infrastructure;   Great potential but needs investment and
production from switch   product                          • Disposal of byproduct -   government subsidies.
grass and manure         2. Switchgrass removes more      contains nutrients;         Cellulosic ethanol from switchgrass
                         nutrients from the soil than     1. Competition from corn    mentioned in the 2006 State of the Union
                         feed crops.                      ethanol industry;           Address.
                                                          2. Producers prefer to
                                                          grow feed crops.
Soil treatments and manure additives
Injection method for     Reduces atmospheric              • Application rate very
manure application to    ammonia loss                     slow.
no-till crops                                             • Limited to dairy
                                                          manure.
                                                          • Costs for special
                                                          equipment.
                                                          • Phosphorus builds up
                                                          in the plow layer so must
                                                          mix every few years
Synthetic soil           The addition of polymers are     Expense.
amendments to            a way to reduce irrigation-      Byproduct of polymer
reduce erosion           induced erosion.                 degradation has been
                                                          identified as a toxin.




                                                               55
        Practice                      Benefits                        Limitations                            Comments
Co-blend aluminum,         1. Aluminum is already used         1. Aluminum may be             Alum proposed as best management
iron, or other materials   by poultry industry in the litter   toxic to fish and              practice by manufacturer.
with manure to bind        to bind phosphorus                  associated with
phosphorus and make        2. Gypsum as soil additive          Alzheimer’s
insoluble                  will bind phosphorus                2. Gypsum only works
                           3. Iron sulfate as a treatment      for 5-10 years
                           for poultry litter will bind        3. Iron rejected by the
                           phosphorus.                         poultry industry due to
                                                               poultry health concerns;
                                                               • Long term effects on
                                                               birds, soil and humans
                                                               unknown.
Iron sulfate as soil       Can be used as chemical             • When used near               Need to set up a demonstration project
amendment                  buffer at edge of field will        poultry, may impact            for use of iron sulfate as chemical buffer.
                           make phosphorus insoluble           health.
                           and reduce runoff.                  • Has not been adopted
                                                               by producers
Other
Nutrient trading           • It can act as an incentive to     • Producer’s liability and     Pennsylvania is active in development of
                           achieve pollution reductions        responsibility for doing a     nutrient trading.
                           versus Total Maximum Daily          practice that is not
                           Load caps.                          verifiable.
                           • Brings in money beyond the        • Easiest practices done
                           usual funding sources.              first so difficult practices
                                                               may not be done.
                                                               • Balancing the purchase
                                                               of credits for practices
                                                               with tributary strategy’s
                                                               goals may be
                                                               problematic-consistency
                                                               of credit estimations.
                                                               • No trade transparency.
Algal systems to           • On-the-farm treatment for         • Has not been tested in       Need to set up a demonstration project.
produce commercial         dairy manure and creation of        a large-scale pilot study
fertilizer                 an transportable fertilizer         • Establish infrastructure
                           product.                            to manufacture and
                           • Inexpensive and easy to           market end product.
                           set up for producer.
Phytoremediation-          Install wetland to take up          Economic impact to             Wet areas in fields can be source of
wetland to take up         nutrients                           producers due to land          nutrient runoff.
nutrients                                                      taken out of production.       Test ideas such as planting hydrophilic
                                                                                              species in wet areas instead of installing
                                                                                              drains.

     Sources: Online literature searches and interviews with EPA/CBPO and USDA staff, a Chesapeake Bay Program
     Scientific and Technical Advisory Committee agricultural expert, and Maryland Department of Natural Resources staff.




                                                                     56
                                   Appendix E

EPA Response to OIG Draft Report




               57
                                    Appendix F

USDA Response to OIG Draft Report




               58
59
60
61
62
